INDEX TO THE APPENDIX
District court order (D.S.C.),
April 16, 2021.................................................1a
Court of appeals order and opinion,
April 15, 2021................................................21a
District court order (D.S.C.),
April 14, 2021................................................24a
District court order (D. Minn.),
April 1, 2021.................................................33a
Arbitral Panel’s Third Interim Award,
March 9, 2021.................................................39a
Servotronics Skeleton Argument for Application Hearing,
March 1, 2021.................................................52a

2:18-mc-00364-DCN

Date Filed 04/16/21

Entry Number 47

Page 1 of 20

1a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
CHARLESTON DIVISION
In re:
Application of SERVOTRONICS, INC.
for an Order Pursuant to 28 U.S.C. § 1782
to Take Discovery for Use in a Foreign
Proceeding

)
)
)
)
)
)

No. 2:18-mc-00364-DCN
ORDER

The following matter is before the court on applicant SERVOTRONICS, INC.'s
("Servotronics") Renewed Application for an Order Pursuant to 28 U.S.C. § 1782 to Take
Discovery for Use in a Foreign Proceeding, ECF No. 13. On April 14, 2021, the court
opted to hold the application in abeyance and stay proceedings pending the Supreme
Court's resolution of Servotronics, Inc. v. Rolls-Royce PLC, No. 20-794, 2021 WL
1072280 (U.S. Mar. 22, 2021). The next day, the Fourth Circuit granted Servotronics'
petition for a writ of mandamus and directed the court to "issue, without delay, the
subpoenas to the witnesses within its jurisdiction[.]" ECF No. 46 at 2-3. Accordingly,
the court lifts the stay, grants the application, and issues the requested subpoenas.
I. BACKGROUND
This application arises out of an arbitration related to a fire at The Boeing
Company's ("Boeing") facilities in Charleston, South Carolina. On January 16, 2016,
Boeing was conducting testing on a plane when a tailpipe fire occurred in the plane's
engine. The engine was manufactured by Rolls-Royce, PLC ("Rolls-Royce), and it
contained a valve manufactured by Servotronics. During testing, a piece of metal became
lodged in the valve, which affected the engine fuel flow. As a result, the Boeing ground
crew began troubleshooting the engine, and subsequently the fire occurred. The fire

1

2a

3a

4a

5a

6a

7a

8a

9a

10a

11a

12a

13a

14a

15a

16a

17a

18a

19a

20a

USCA4 Appeal: 21-1305

Doc: 22

Filed: 04/15/2021
21a

Pg: 1 of 3

FILED: April 15, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 21-1305
(2:18-mc-00364-DCN)
___________________
In re: SERVOTRONICS, INC.
Petitioner
___________________
ORDER
___________________
In its petition for a writ of mandamus dated March 19, 2021, Servotronics,
Inc. requested that we direct the district court “to promptly rule” on its renewed
application, filed on May 10, 2020 under 28 U.S.C. § 1782, for assistance in
connection with an arbitration in the United Kingdom, which is scheduled to begin
May 10, 2021. After receiving a response to the petition, we communicated with
the district court to afford it the opportunity to rule before we considered
Servotronics’ petition. In response, the district court issued an order staying its
proceedings pending the Supreme Court’s decision in Servotronics, Inc. v. RollsRoyce PLC, No. 20-794, 2121 WL 1072280 (U.S. March 22, 2021), where the

USCA4 Appeal: 21-1305

Doc: 22

Filed: 04/15/2021
22a

Pg: 2 of 3

Supreme Court granted certiorari to review a decision from the Seventh Circuit,
Servotronics, Inc. v. Rolls-Royce PLC, 975 F.3d 689 (7th Cir. 2020), that arose from
the same incident and that addressed the same issue that underlies the petition here.
The petition before us arises out of Servotronics’ application to the district
court under 28 U.S.C. § 1782 to obtain testimony from three Boeing employees
residing in South Carolina for use in a pending arbitration in the United Kingdom.
The district court denied Servotronics’ application, concluding that § 1782 was not
applicable to a private arbitration. By a decision dated March 30, 2020, we reversed
the district court’s order and remanded for the court to conduct proceedings on
Servotronics’ application. Servotronics, Inc. v. Boeing Co., 954 F.3d 209 (4th Cir.
2020). Since the issuance of that decision, however, the district court has conducted
no further proceedings, despite Servotronics’ renewed application filed on May 1,
2020, and its subsequent “Request for Ruling” filed on January 6, 2021.
While we recognize that the Supreme Court has determined to review the
Seventh Circuit’s decision on the same issue that we addressed in our earlier
decision, our mandate remains in force until the Supreme Court rules otherwise.
Moreover, to stay proceedings, as the district court seeks to do, could render moot
our decision, as the UK arbitration remains scheduled to begin on May 10, 2021,
despite efforts to postpone it.
Accordingly, we now grant Servotronics’ petition for a writ of mandamus and
direct the district court to issue, without delay, the subpoenas to the witnesses within

USCA4 Appeal: 21-1305

Doc: 22

Filed: 04/15/2021
23a

Pg: 3 of 3

its jurisdiction and take their testimony for use in the UK Arbitration.
Entered at the direction of Judge Niemeyer with the concurrence of Chief
Judge Gregory and Judge Harris.
Ordered this 15th day of April, 2021.
For the Court
/s/ Patricia S. Connor, Clerk

2:18-mc-00364-DCN

Date Filed 04/14/21

Entry Number 45

Page 1 of 9

24a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
CHARLESTON DIVISION
In re:

)
)
Application of SERVOTRONICS, INC.
)
for an Order Pursuant to 28 U.S.C. § 1782 )
to Take Discovery for Use in a Foreign
)
Proceeding
)
____________________________________)

No. 2:18-mc-00364-DCN
ORDER

The following matter is before the court on applicant SERVOTRONICS, INC.’s
(“Servotronics”) Renewed Application for an Order Pursuant to 28 U.S.C. § 1782 to Take
Discovery for Use in a Foreign Proceeding, ECF No. 13. For the reasons set forth below,
the court holds the application in abeyance and stays proceedings pending the Supreme
Court’s resolution of Servotronics, Inc. v. Rolls-Royce PLC, No. 20-794, 2021 WL
1072280 (U.S. Mar. 22, 2021) (“Servotronics, U.S.”).
I. BACKGROUND
This application arises out of an arbitration related to a fire at The Boeing
Company’s (“Boeing”) facilities in Charleston, South Carolina. On January 16, 2016,
Boeing was conducting testing on a plane when a tailpipe fire occurred in the plane’s
engine. The engine was manufactured by Rolls-Royce, PLC (“Rolls-Royce) and
contained a valve manufactured by Servotronics. During testing, a piece of metal got
lodged in the valve, which affected the engine fuel flow. As a result, the Boeing ground
crew began troubleshooting the engine, and subsequently the fire occurred. The fire
damaged both the engine and the plane. Boeing sought compensation for the damage
from Rolls-Royce, and Rolls-Royce settled the claim. Then Rolls-Royce demanded
indemnity from Servotronics, which Servotronics refused. Servotronics maintains that it

1

2:18-mc-00364-DCN

Date Filed 04/14/21

Entry Number 45

Page 2 of 9

25a
is not liable for the damage caused by the fire and claims that fault lies with Rolls-Royce
and Boeing. Rolls-Royce and Servotronics are parties to an agreement that requires the
parties to resolve any disputes through arbitration in Birmingham, England. Rolls-Royce
served a notice of arbitration on Servotronics seeking approximately $12.8 million. The
parties have agreed to arbitrate in London instead of Birmingham as a matter of
convenience. Servotronics now seeks testimony from three former and current Boeing
employees to be used in the arbitration in support of its defenses. The first two
employees, Terrance Shifley (“Shifley”) and Alan Sharkshna (“Sharkshna”), are
employees who participated in troubleshooting the plane’s engine. The third employee,
Scott Walston (“Walston”), was the chairperson of the Boeing Incident Review Board
that investigated the fire.
Servotronics initially filed an ex parte application pursuant to 28 U.S.C. § 1782,
requesting leave to serve subpoenas upon the three witnesses on October 26, 2018. ECF
No. 1. This court denied the application, finding that the U.K. private arbitral tribunal is
not a “foreign tribunal” as defined by § 1782. ECF No. 4. Servotronics appealed the
order, and Boeing and Rolls-Royce (collectively, “intervenors”) intervened in the appeal.
The Fourth Circuit reversed this court’s order, finding that the arbitral tribunal is a § 1782
“foreign tribunal,” and remanded for further proceedings. Servotronics, Inc. v. Boeing
Co., 954 F.3d 209, 216 (4th Cir. 2020) (“Servotronics, 4th Cir.”). Concurrently with the
instant proceedings before this court, Servotronics litigated another § 1782 application in
the District of Illinois, where it sought to subpoena Boeing to produce certain documents
for use in the same overseas arbitration. In re Servotronics, Inc., 2019 WL 9698535,
(N.D. Ill. Apr. 22, 2019). The Northern District of Illinois initially granted the

2

2:18-mc-00364-DCN

Date Filed 04/14/21

Entry Number 45

Page 3 of 9

26a
application but, upon reconsideration, vacated its order, denied the application, and
quashed Servotronics’ subpoena. Id. The district court there reached the same
conclusion that this court reached prior to Fourth Circuit reversal—that a private arbitral
tribunal is not a “foreign tribunal” under § 1782. Servotronics appealed, and the Seventh
Circuit affirmed, holding that private arbitration tribunals are not “foreign or international
tribunals” under § 1782 and making explicit its departure from the Fourth Circuit’s recent
interpretation. Servotronics, Inc. v. Rolls-Royce PLC, 975 F.3d 689, 691, 693–94 (7th
Cir. 2020) (“Servotronics, 7th Cir.”). As such, there exists a circuit split with respect to
the same issue and, perhaps for the first time, with respect to the very same case.
After the Fourth Circuit’s remand, Servotronics filed its renewed application with
the court on May 1, 2020. ECF No. 13. Intervenors filed a joint response on May 29,
2020, ECF No. 20, and Servotronics replied on June 5, 2020, ECF No. 21. The court
held a hearing on June 30, 2020 and subsequently entered an order instructing the parties
to submit supplemental briefing on issues raised at the hearing. ECF No. 27. The parties
filed their first batch of supplemental briefs on July 21, 2020. ECF Nos. 32–33. On
August 24, 2020, the court ordered a second batch of supplemental briefing, requesting
that the parties analyze the test employed by the Second Circuit in In re del Valle Ruiz to
determine “whether the court has authority over” the witnesses. ECF No. 34; 939 F.3d
520 (2d Cir. 2019). The parties timely complied. ECF Nos. 35–36. On December 2,
2020, Servotronics filed a “modification” to its application, informing the court that one
of the relevant witnesses, Shifley, “now resides in the District of Minnesota” and
withdrawing its application with respect to Shifley. ECF No. 37. Intervenors responded,
noting that Rolls Royce intends to call the remaining two witnesses, Sharkshnas and

3

2:18-mc-00364-DCN

Date Filed 04/14/21

Entry Number 45

Page 4 of 9

27a
Walston, at the arbitration hearing, meaning that Servotroincs would have the opportunity
to examine them at that time, if it so chooses. ECF No. 38.
On December 7, 2020, Servotronics petitioned the Supreme Court of the United
States for a writ of certiorari, seeking review of the Seventh Circuit’s decision. On
January 6, 2021, Servotronics again supplemented its application, requesting that the
court issue an order so that Servotronics can “serve the subpoena(s), arrange the
depositions, and obtain the[] testimonies before the arbitration hearing,” which is
scheduled for May 10, 2021. ECF No. 39 at 1. On February 23, 2021, intervenors also
filed another supplement, informing the court that they could no longer guarantee
Sharkshnas’s presence at the arbitration hearing. ECF No. 40. The next day,
Servotronics put in its two cents about the legal implications of Sharkshnas’s absence and
informed the court that it had requested a continuance of the arbitration hearing with the
arbitration panel. ECF No. 41. On March 11, 2021, Servotronics informed the court that
the panel denied its request for a continuance. ECF No. 42. The next day, intervenors
reported to this court the very same, adding that the arbitration panel ultimately found
“that obtaining any evidence from the various § 1782 proceedings is not a compelling
reason for adjournment.” ECF No. 43 at 1–2.
On March 22, 2021, the Supreme Court granted Servotronics’ certiorari petition
in connection with its appeal from the Seventh Circuit’s opinion. The issue on certiorari
is as follows:
Whether the discretion granted to district courts in 28 U.S.C. § 1782(a) to
render assistance in gathering evidence for use in “a foreign or international
tribunal” encompasses private commercial arbitral tribunals, as the Fourth
and Sixth Circuits have held, or excludes such tribunals without expressing
an exclusionary intent, as the Second, Fifth, and, in the case below, the
Seventh Circuit, have held.
4

2:18-mc-00364-DCN

Date Filed 04/14/21

Entry Number 45

Page 5 of 9

28a

Servotronics, U.S., 2021 WL 1072280, at *1. 1
II. DISCUSSION
The court finds that it would be imprudent to resolve an issue while that exact
same issue, in the exact same case, is pending before the United States Supreme Court.
As the court mentioned above, Servotronics informed the court that one of the witnesses
whose presence it initially sought to compel, Shifley, moved to Minnesota, likely beyond
the reach of this court’s grasp. Accordingly, Servotronics filed an application nearly
identical to the instant application with the District Court for the District of Minnesota.
Faced with an application nearly identical to the one pending here, and thus the same
quandary as this court, the District Court stayed the proceedings before it under its
inherent power to do so. Servotronics, Inc. v. Rolls-Royce PLC, 2021 WL 1221189 (D.
Minn. Apr. 1, 2021) (“Servotronics, D. Minn”). Judge Katherine Menendez reasoned
that a stay was the proper course because “the Supreme Court has accepted review of the
Seventh Circuit’s decision, and it is certain that the Court will address the very question
now before this Court.” Id. at *2. Finding Judge Menendez’s wisdom compelling, the
court resolves to follow suit, hold the renewed application in abeyance, and stay
proceedings pending Supreme Court guidance.
“[T]he power to stay proceedings is incidental to the power inherent in every
court to control the disposition of the causes on its docket with economy of time and
effort for itself, for counsel, and for litigants.” Landis v. N. Am. Co., 299 U.S. 248, 254–

1

The Supreme Court’s statement of the issue on certiorari, along with other
documents filed in connection with its review, can be found on the Supreme Court’s
website. https://www.supremecourt.gov/search.aspx?filename=/docket/docketfiles/
html/public/20-794.html.
5

2:18-mc-00364-DCN

Date Filed 04/14/21

Entry Number 45

Page 6 of 9

29a
55 (1936); see also United States v. Oliver, 878 F.3d 120, 124 (4th Cir. 2017) (“The
Supreme Court has [] recognized federal courts’ inherent authority to . . . stay an action
pending the outcome of parallel proceedings in another court[.]”). A court may invoke
this authority upon a party’s request or on its own accord. Crown Cent. Petroleum Corp.
v. Dep’t of Energy, 102 F.R.D. 95, 98 (D. Md. 1984). Determining whether to issue a
stay “calls for the exercise of judgment, which must weigh competing interests and
maintain an even balance.” Landis, 299 U.S. at 255. The district court has discretion in
issuing a stay, given that it is in the interest of “the expeditious and comprehensive
disposition of the causes of action on the court’s docket.” United States v. Georgia Pac.
Corp., 562 F.2d 294, 296 (4th Cir. 1977). With this law firmly in mind, the court
determines that a stay is appropriate here.
The District Court in Minnesota rooted its issuance of a stay in sound logic. First,
Judge Menendez noted that “there is a prominent split between the circuits [that] have
addressed the precise issue before this Court—namely, whether foreign private
arbitration falls within the purview of § 1782.” Servotronics, D. Minn, 2021 WL
1221189, at *2. Of course, that is true. For one, there was an existing circuit split on this
issue prior to Servotronics’ nationwide filings. See Nat’l Broad. Co. v. Bear Stearns &
Co., 165 F.3d 184, 188 (2d Cir. 1999) (finding that private arbitral panels are not “foreign
tribunals” under § 1782); In re Application to Obtain Discovery for Use in Foreign Proc.,
939 F.3d 710, 714 (6th Cir. 2019) (finding that private arbitral panels are “foreign
tribunals” under § 1782). More compelling though, and indeed extraordinary, there now
exists a split among circuits on this issue within the very same case. See Servotronics,
4th Cir., 954 at 216 (finding that the U.K. private arbitral panel is a “foreign tribunal”

6

2:18-mc-00364-DCN

Date Filed 04/14/21

Entry Number 45

Page 7 of 9

30a
under § 1782); Servotronics, 7th Cir., 975 F.3d at 691 (finding that the U.K. private
arbitral panel is not a “foreign tribunal” under § 1782). As the Judge Menendez put it,
this is not a stay pending resolution of a legal issue that merely has some
possible bearing on this case. The matter before the Supreme Court is this
case, albeit involving a different subpoena. The matter before the Supreme
Court involves the same parties, seeking resolution of the same issue and
for the same reasons, as here; and it is worth noting that this very question
has already been addressed by two other circuit courts of appeals with
contradictory results.
Servotronics, D. Minn, 2021 WL 1221189, at *2 (emphasis added). The Supreme Court
has granted certiorari on the issue, meaning that a decision from the highest court in the
land on the very issue before this court is imminent. Accordingly, a stay under these
unique circumstances best serves judicial efficiency. A hasty decision by this court may
very well be contrary to a subsequent decision from the Supreme Court. Were this court
to resolve Servotronics application in a way that conflicts with immediately successive
Supreme Court precedent, the issue would more than likely end up back before the court,
at the expense of considerable time and resources, expended for naught. Just like the
District Court in Minnesota, the court finds “staying this matter until the Supreme Court
answers the critical issue . . . more efficient and practical than the alternative.” Id.
Servotronics’ request that the court resolve its application, despite the current
uncertainty of the relevant law and the promise of forthcoming clarity, stems from the
facts that the arbitration hearing is set to occur on May 10, 2021 and the arbitration panel
has decided to conduct the hearing with or without the evidence Servotronics seeks in
American courts. In other words, less than a month from the hearing, Servotronics’
request to compel deposition testimony could be a now-or-never proposition. But, as
Judge Menendez noted, “that is an issue on which the arbitration panel has the last word.”

7

2:18-mc-00364-DCN

Date Filed 04/14/21

Entry Number 45

Page 8 of 9

31a
Id. at *3. As the court noted above, Servotronics requested that the arbitration panel
continue the hearing, and the panel rejected that request, finding “that obtaining any
evidence from the various § 1782 proceedings is not a compelling reason for
adjournment.” ECF No. 43 at 1–2. While empathetic to Servotronics’ circumstances, 2
the parties contracted to have an arbitral panel settle their disputes, and the court must
accord that panel its due respect. Judge Menendez put it best: “It is up to the panel to
decide whether, in light of the Supreme Court’s decision, it should stay further
proceedings, and that panel is in a far better position than this Court to understand the
importance of the deposition at issue here to the matters on [its] plate.” Id. Again, the
court agrees. Servotronics presented its procedural plight to the arbitral panel, and the
panel deemed it unworthy of relief. As Judge Menendez noted, “If the panel decides that
the deposition is necessary to a full and fair resolution, it can revisit its decision to go
ahead with the hearing on May 10.” Id.
In sum, various Courts of Appeal have come down on either side of the issue at
the heart of Servotronics’ application. And two Courts of Appeal, the Fourth and
Seventh Circuits, have come down on different sides of Servotronics’ application in this
very case. The Supreme Court granted Servotronics’ petition for certiorari on the issue,
signaling that a binding resolution from the nation’s highest court is on the horizon.
Resolving Servotronics’ renewed application without that guidance would be an
imprudent waste of judicial resources. Accordingly, the court resolves to wait for an
answer, rather than guess at it.

2

Since it was Servotronics who petitioned for certiorari, asking the Supreme
Court to weigh in on an outcome-determinative issue for its applications, it could be seen
that Servotronics is the author of its own demise.
8

2:18-mc-00364-DCN

Date Filed 04/14/21

Entry Number 45

Page 9 of 9

32a
III. CONCLUSION
For the foregoing reasons the court HOLDS IN ABEYANCE Servotronics’
renewed application and STAYS this matter pending the Supreme Court of the United
States’s review of Servotronics, Inc. v. Rolls-Royce PLC, No. 20-794, 2021 WL 1072280
(U.S. 2021).
AND IT IS SO ORDERED.

DAVID C. NORTON
UNITED STATES DISTRICT JUDGE
April 14, 2021
Charleston, South Carolina

9

CASE 0:20-mc-00081-JRT-KMM Doc. 26 Filed 04/01/21 Page 1 of 6
33a

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA

Servotronics, Inc.,

Case No. 0:20-mc-81-JRT-KMM

Petitioner,

ORDER

v.
Rolls-Royce PLC,
Intervenor.

Currently pending before the Court is an application pursuant to 28 U.S.C. §1782
seeking an order permitting the deposition of a Minnesota resident for use in a foreign
arbitration proceeding. Rather than rule on the pending request at this time, the Court has
determined that a stay is appropriate in this matter for the reasons set forth below.
Background
This case concerns Servotronics, Inc.’s, application to take discovery for use in a
foreign proceeding pursuant to 28 U.S.C. § 1782. [ECF No. 1]. In 2018, Servotronics
filed a similar application in the district of South Carolina. In re Servotronics, Inc., No.
2:18-mc-00364-DCN, 2018 WL 5810109 (D.S.C. Nov. 6, 2018). There, Servotronics
sought to depose witnesses to an incident at issue in an ongoing arbitration action against
Servotronics in London, England. [Pet. 2, ECF No. 1]. Holding that a United Kingdom
private arbitration panel was not a “foreign or international tribunal” for purposes of
§ 1782, the South Carolina district court denied Servotronics’ application. Servotronics,
Inc. v. Boeing Co., 954 F.3d 209, 209 (4th Cir. 2020). In 2020, the Fourth Circuit
1

CASE 0:20-mc-00081-JRT-KMM Doc. 26 Filed 04/01/21 Page 2 of 6
34a

reversed, holding that the language of § 1782 did in fact extend to the arbitration panel.
Id.
After the Fourth Circuit remanded the case for further proceedings, Servotronics
learned that one of the witnesses it was trying to depose had moved from South Carolina
and now resides in Minnesota. [Pet’r’s Mem. 4, ECF No. 2]. Accordingly, Servotronics
filed the instant application, seeking an order from this Court requiring the deposition.
The claimant in the England arbitration—Rolls-Royce PLC—intervened in this matter
and opposes the application. [Order, ECF No. 17].
In 2019, while the South Carolina applications were being litigated, Servotronics
filed another § 1782 application in the District of Illinois, seeking an order allowing it to
serve Boeing Company with a subpoena for documents for use in the same overseas
arbitration. In re Servotronics, Inc., No. 18-cv-7187, 2019 WL 9698535 (N.D. Ill. Apr.
22, 2019). The district court granted the application, but Rolls-Royce intervened and filed
a successful motion to quash the subpoena. Following an appeal by Servotronics, The
Seventh Circuit Court of Appeals affirmed, holding that private arbitration tribunals were
not “foreign or international tribunals” under § 1782—expressly declining to adopt the
Fourth Circuit’s recent interpretation. Servotronics, Inc. v. Rolls-Royce PLC, 975 F.3d
689, 691, 693–94 (7th Cir. 2020). This created a circuit split where both competing
decisions arise from a single foreign arbitration.
On December 7, 2020, Servotronics petitioned the Supreme Court of the United
States for a writ of certiorari, seeking review of the Seventh Circuit’s decision. On March
16, 2021, this Court held a status conference, during which, “[b]ecause the arbitration
2

CASE 0:20-mc-00081-JRT-KMM Doc. 26 Filed 04/01/21 Page 3 of 6
35a

underlying the §1782 petition in this matter is scheduled to go ahead in just under two
months, the Court determined that a stay would not be in the interest of justice.”
[Minutes, ECF No. 22].
After the status conference, Servotronics provided the Court with the arbitration
panel’s decision to proceed with the final hearing on May 10, 2021—regardless of
whether Servotronics obtains the deposition it seeks here. [Letter, ECF No. 23]. And,
most relevant to this order, on March 22, 2021, the Supreme Court granted Servotronics’
certiorari petition. The question to be addressed by the Court is:
Whether the discretion granted to district courts in 28 U.S.C. §1782(a) to
render assistance in gathering evidence for use in “a foreign or international
tribunal” encompasses private commercial arbitral tribunals, as the Fourth
and Sixth Circuits have held, or excludes such tribunals without expressing
an exclusionary intent, as the Second, Fifth, and, in the case below, the
Seventh Circuit, have held.
Servotronics, Inc. v. Rolls-Royce PLC, No. 20-794, 2021 WL 1072280 (U.S. 2021).1 The
Supreme Court’s decision to address the very issue now before this Court has changed
the Court’s assessment regarding the propriety of a stay.
Analysis
“[T]he power to stay proceedings is incidental to the power inherent in every court
to control the disposition of the causes on its docket with economy of time and effort for
itself, for counsel, and for litigants.” Landis v. N. Am. Co., 299 U.S. 248, 254 (1936);

The Supreme Court’s statement of the issue presented, as well as other documents filed
in connection with this review, can be found on the Supreme Court’s website at:
https://www.supremecourt.gov/search.aspx?filename=/docket/docketfiles/html/public/20794.html
1

3

CASE 0:20-mc-00081-JRT-KMM Doc. 26 Filed 04/01/21 Page 4 of 6
36a

Emerson Elec. Co. v. Black & Decker Mfg. Co., 606 F.2d 234, 237 n.6 (8th Cir. 1979). A
“federal court has inherent power to stay, sua sponte, an action before it.” Crown Cent.
Petroleum Corp. v. Dep’t of Energy, 102 F.R.D. 95, 98 (D. Md. 1984) (citing Landis, 299
U.S. at 254–55). Whether to stay a proceeding is within the court’s broad discretion, so
long as it comports with considerations of judicial economy and equity. Sierra Club v.
U.S. Army Corps of Engineers, 446 F.3d 808, 816–17 (8th Cir. 2006); see Kircher v.
Putnam Funds Trust, Nos. 06-cv-939-DRH, 06-cv-1001-DRH, 2007 WL 1532116, at *2
(S.D. Ill. May 24, 2007) (collecting cases). Against this backdrop, the Court determines
that a stay is appropriate.
Admittedly, the Court recently determined that a stay of this matter would be
improper. [Minutes, ECF No. 22]. However, it was unknown at that time when the
Supreme Court would rule on Servotronics’ petition, and the odds of the Court granting
review in any individual matter are not high. Now, however, the Supreme Court has
accepted review of the Seventh Circuit’s decision, and it is certain that the Court will
address the very question now before this Court. Therefore, the Court finds that a stay is
proper.
First, there is a prominent split between the circuits to have addressed the precise
issue before this Court—namely, whether foreign private arbitration falls within the
purview of § 1782. See Servotronics, 975 F.3d at 693 (summarizing the split). Second,
there is no Eighth Circuit precedent on this issue, so the Court would have to
independently interpret the very same statutory language that is presently pending
interpretation by the Supreme Court. Finally, this is not a stay pending resolution of a
4

CASE 0:20-mc-00081-JRT-KMM Doc. 26 Filed 04/01/21 Page 5 of 6
37a

legal issue that merely has some possible bearing on this case. The matter before the
Supreme Court is this case, albeit involving a different subpoena. The matter before the
Supreme Court involves the same parties, seeking resolution of the same issue and for the
same reasons, as here; and it is worth noting that this very question has already been
addressed by two other circuit courts of appeals with contradictory results. Moreover, it is
very likely that, whatever decision this Court reaches, the losing party will appeal the
order, first to the District Court, and then to the Eighth Circuit. Each level of review will
be aware that, as it grapples with the application of § 1782 to the circumstances of this
case, the Supreme Court does as well. Under these circumstances, the Court concludes
that staying this matter until the Supreme Court answers the critical issue would be more
efficient and practical than the alternative. Accordingly, the Court concludes that a stay is
proper.
The Court is aware that this stay may increase the risk that Servotronics’ § 1782
application becomes moot. The arbitration panel has determined, it seems, that it will
proceed with the final hearing on May 10, 2021—with or without the discovery
Servotronics seeks here or in the other pending proceedings. However, that is an issue on
which the arbitration panel has the last word. It is up to the panel to decide whether, in
light of the Supreme Court’s decision, it should stay further proceedings, and that panel is
in a far better position than this Court to understand the importance of the deposition at
issue here to the matters on their plate. The Court declines to rush a decision here for the
purpose of accommodating a schedule set by the arbitration panel in its discretion,
particularly where the panel set that schedule with full awareness of the pending Supreme
5

CASE 0:20-mc-00081-JRT-KMM Doc. 26 Filed 04/01/21 Page 6 of 6
38a

Court petition. If the panel decides that the deposition is necessary to a full and fair
resolution, it can revisit its decision to go ahead with the hearing on May 10.
ACCORDINGLY, this matter is stayed pending the Supreme Court of the United
States’ review of Servotronics, Inc. v. Rolls-Royce PLC, No. 20-794, 2021 WL 1072280
(U.S. 2021).
IT IS SO ORDERED.
Date: April 1, 2021

s/ Katherine Menendez
Katherine Menendez
United States Magistrate Judge

6

39a

IN THE MATTER OF AN ARBITRATION
UNDER THE RULES OF THE CHARTERED INSTITUTE OF ARBITRATORS
B E T W E E N:
ROLLS ROYCE PLC
Claimant
-and-

SERVOTRONICS INC
Respondent

THIRD INTERIM AWARD

Introduction
1.

This is the Third Interim Award in this arbitration. It is made in response to two sets of
applications dated 20 January 2021:
1.1 An application by the Respondent for an adjournment of the final hearing of this
arbitration, which was fixed on 7 April 2020 (confirmed by Amended Order for Directions
dated 10 July 2020) to commence on 10 May 2021.

The Respondent seeks an

adjournment to a date not before 1 October 2021, so that the final hearing might take
place in person and with the benefit of any evidence obtained from Boeing pursuant to
the Respondent’s applications under 28 USC §1782 in Illinois, South Carolina and
Minnesota.
1.2 Applications by the Claimant for orders:
(a)

Confirming the existing dates of the final hearing (to take place wholly or
partially virtually).

(b)

Restraining the Respondent from taking any further step in, and requiring the
Respondent to discontinue, its §1782 proceedings for document production in
Illinois (the “Illinois Proceedings”).

1

40a

(c)

Restraining the Respondent from taking any further step in, and requiring the
Respondent to discontinue, its §1782 proceedings to depose Mr Scott Walston
in South Carolina (the “South Carolina Proceedings”).

(d)

That the Tribunal does not require the documents sought in the Illinois
Proceedings or the deposition of Mr Walston in this arbitration, and/or that any
evidence so obtained by the Respondent shall not be admitted in this
arbitration.

2.

Each of the parties’ applications is supported by detailed written Skeleton Arguments dated 1
March 2021. The Tribunal is grateful to the parties and their legal representatives for those
Arguments and for the oral submissions subsequently made on 4 March 2021 at the hearing
of the applications, by Mr Shah QC on behalf of the Respondent and by Mr Dhar QC on behalf
of the Claimant.

3.

The applications were accompanied by four lever arch files of documents, including legal
authorities, relevant to the applications.

Respondent’s Application for an Adjournment
4.

In the light of the COVID-19 pandemic and the lockdown restrictions currently in place in
England and expected to be in place in the immediate future, it is almost certain that any
hearing of this arbitration on 10 May 2021 will have to be virtual or, at least, partially virtual.
It is extremely unlikely that an in-person hearing involving participants from the US and
Canada on that date will be possible.

5.

The Respondent suggests that, by contrast, it is reasonable to expect that the parties will be
able to proceed with an in-person hearing in the autumn / fall.

6.

It is against that background that the Respondent makes its application for an adjournment of
the final hearing in this arbitration from the presently fixed date of 10 May 2021 to the first
available date after 1 October 2021. Counsel have confirmed that both parties would be
available for a final hearing for 10 days on and following 1 October 2021.

2

41a

7.

The Respondent bases its application on the submission that, for the reasons set out in its
Skeleton Argument and spoken to by Mr Shah in his oral submissions, the dispute between
the parties in this arbitration is not suitable for a remote hearing.

8.

The Tribunal is guided by the principles that the parties should be treated with equality, that
each party should be given a fair and reasonable opportunity of presenting its case, and that
it is required, in the exercise of its discretion, so to conduct the arbitration as to avoid
unnecessary delay and expense and to provide a fair and efficient process for resolving the
parties’ dispute. The ultimate requirement is that the proceedings should be fair as between
the parties.

9.

The Respondent suggests that the Tribunal has a binary choice: either to hold a remote (or
largely remote) hearing in May 2021 involving participants in several countries with different
time zones or to grant a short five-month adjournment until October 2021 to allow for an inperson hearing. The premise of the Respondent’s application is that there should be no
difficulty in having an in-person hearing in London in October 2021.

10.

In the Tribunal’s view, that premise is fragile at best. There is no certainty that any hearing in
October 2021 will or could be in-person. As the Respondent, itself, stresses in its Skeleton
Argument, during the pandemic the English courts have stressed the need to assess the
prevailing circumstances “from day to day” as these are likely to change “rapidly”. While it is
right that the roll out of vaccines in England and the current decline in hospitalisations and
deaths from COVID-19 provide a real basis for optimism about the future, there is also no
gainsaying the real possibility that things might change between now and October 2021. New
and more transmissible variants of COVID-19, serious new outbreaks of the disease, and new
local and/or national lockdowns following relaxations of the Regulations, cannot be
discounted. Nor can it be assumed that travel restrictions between the United Kingdom and
United States, or the attendant quarantine requirements, will have been lifted by October. It
remains entirely and realistically possible that, if this arbitration were to be adjourned to
October 2021, any such hearing would necessarily or sensibly still have to take place remotely.

11.

If, however, the Respondent were right in its other overarching submission, that the dispute
between the parties in this arbitration is not at all suitable for a remote hearing, that might
warrant the adjournment of the May 2021 dates in any event, irrespective of what the
position might be in October 2021. The Tribunal, however, has little hesitation in rejecting
that submission.
3

42a

12.

The different locations of counsel, witnesses, parties and arbitrators, and consequential
different time zones, obviously present a challenge to the fair and efficient conduct of a fully
virtual hearing. The Tribunal is, however, firmly of the view not only that the challenge is
capable of being met but also that a properly administered and managed fully virtual hearing
will (i) treat both parties with equality, (ii) provide each party with a fair and reasonable
opportunity of presenting its case, (iii) avoid unnecessary delay, and (iv) provide a fair and
efficient process for resolving the parties’ dispute. The Tribunal comes to its view for the
reasons that follow.

13.

The participants in the US and Canada can be accommodated, whether for the purposes of
attending or of giving evidence or of making submissions, all remotely, by virtue of late starts
in London for those in London, including the members of the Tribunal. By way of example, a
start at 13.00 in London would be 08.00 EST. With two short 15-minute breaks and a longer
45-minute break, even a 6 hour day would finish by 19.00 in London, which would be 14.00
EST. If the parties were to request earlier starts or later finishes, or indeed later starts or
earlier finishes, the Tribunal would be willing, within reason, to accommodate any such
request if so doing was fair to the parties and those involved. If either party were to request
the oral evidence of any particular witness to be taken at any particular time or times, again
the Tribunal would be willing, within reason, to accommodate any such request if so doing
was fair to the parties and those involved. This obviously includes the Respondent’s expert,
Mr Larry Vance, who is based in Ottawa in Canada, as much as any of the Claimant’s witnesses
of fact who reside in the US.

14.

The Tribunal does not consider these hours or these proposals to be unduly burdensome or
impracticable or at all unfair. One member of the Tribunal has recently conducted a fully
virtual arbitration involving active participants in a wider range of time zones than the present
matter, with arguably more complex issues and with greater sums at stake than in this
reference, without difficulty or any unfairness resulting to any party. The Tribunal does not
consider that this arbitration should be an exception.

15.

The Tribunal has considered all the Respondent’s arguments. The first relates to the eight
factual witnesses whom the Claimant intends to call.

The Respondent says that any

impediment to effective cross examination caused by a remote hearing will disproportionately
harm the Respondent. There is, in the Tribunal’s view, no good reason to suppose that there
will be any substantive impediment. While it is recognised that oral evidence given in cross
examination is the gold standard and that any form of artificial intermediation is a derogation
4

43a

from that standard, that does not necessarily entail the conclusion that requiring a party to
cross examine witnesses remotely will result in unfairness or harm to that party. The use of a
well-recognised and experienced platform such as Opus2 will limit, if not eliminate, any
possible impediments. There is no reason to suppose that there will be technical hitches,
delays in sound transmission, poor or inadequate visual quality, or other difficulties. If there
happen to be any, then appropriate further arrangements will or might have to be made. The
apprehension that such difficulties might, theoretically, arise is not a good reason to expect
them to arise or to conclude that, if perchance they do arise, they will not be capable of being
dealt with entirely satisfactorily.
16.

The Respondent places considerable emphasis on the submission that its defence will depend
heavily on the quality of the factual evidence obtained under cross examination, and for that
reason it is very important that there should be an in-person hearing. The Tribunal disagrees.
The events which occurred and have given rise to the dispute took place as long ago as January
2016. That is more than five years ago already. There will doubtless be debate as to how
much the individual recollections of the Claimant’s witnesses will or can add to the
documentary record. There is no suggestion that the Claimant’s disclosure has fallen short,
and in the Tribunal’s view there are no categories of documents relevant to the issues, for
example from Boeing, which remain necessary to be disclosed for a fair hearing. It seems to
the Tribunal that what is most likely to be controversial is not what happened or did not
happen but the inferences to be drawn from well-documented events and the extent if at all
to which the complaints of negligent failings are justified having regard to the narrative. These
are primarily matters for expert evidence, regarding which it is not suggested that any
inconvenience caused by a virtual hearing falls disproportionately on the Respondent.

17.

The factual witness evidence which has been served by the Claimant in the form of Witness
Statements is, moreover, relatively short (the longest Statement is only 15 pages long and the
total of all the Statements is a mere 47 pages), and the need for cross examination as to
matters falling outside the scope of those Statements is, in the Tribunal’s view, limited. If
there were to be an in-person hearing, the Claimant would be expected to apply for those of
its witnesses who are based in the US and are or were employees of Boeing (five out of the
eight fact witnesses, and the only witnesses to have been directly involved in the fire incident
in January 2016) to give evidence by video link. If the Claimant were to do that, it is most likely
that the Tribunal would give permission for their evidence to be given and taken accordingly.
As noted above, in the Tribunal’s view, the expert evidence in this case is likely to be much

5

44a

more important than that of the fact witnesses. It would also, in the Tribunal’s view, be
disproportionately expensive and burdensome to require those witnesses, who are not even
employees of the Claimant, to come to London to give their short evidence in person. A
remote hearing in May 2021 would, therefore, have no impact on the manner those
witnesses’ evidence would be likely to be presented in any event. The Tribunal has no
hesitation in rejecting the submission that, if the Respondent were required to cross examine
the Claimant’s fact witnesses remotely, the Respondent’s ability or right to cross examine
effectively would be hampered in any material respect.
18.

The Respondent also raises the spectre that, if cross examination of the Claimant’s fact
witness evidence takes place remotely, the integrity of the witness evidence might be
impaired. The Respondent raises concerns about remote and secret coaching, access to notes
and other aids during cross examination, conferences between the witnesses and others
about the evidence during breaks, and other forms of nefarious behaviour. There is absolutely
no evidence whatever to suggest that any of this is a real possibility. Furthermore, steps can
easily be taken to make sure that conduct such as that articulated by the Respondent does
not occur, whether by sensible use of technology (cameras etc.) or by requiring all witnesses
to give their evidence in the presence of a lawyer whose integrity is beyond question.

19.

Turning then to the expert evidence, the Respondent submits that the volume, complexity
and significance of that evidence is “plainly unsuitable for a remote hearing”. While the expert
evidence is, indeed, voluminous and significant, its complexity is by no means unusual or
unmanageable, and the Tribunal foresees no material difficulty if it is given remotely. The
Tribunal already has a flavour of the expert evidence (having read the reports of Mr Keeping,
Mr Hogg, Mr Vance, and Mr Tattersall) and the suggestion that it would be more difficult to
follow if tendered remotely than if given in person is unhesitatingly rejected. The idea that
there might be time lags in audio exchanges or other technical issues, with the consequence
that the Tribunal does not gain the full benefit of the expert evidence, should be capable of
straightforward management. The difficulties proposed by the Respondent in this regard are
speculative and exaggerated. Again, while the evidence of the experts is of great significance
in this arbitration, if their attendance in a virtual hearing is properly arranged and wellmanaged, the Tribunal foresees no issue arising as to the witnesses’ ability to do themselves
full justice in the giving of their evidence, or as to the parties’ ability to question those
witnesses, or as to the Tribunal’s own ability to evaluate and assess their evidence fully and
fairly.

6

45a

20.

A further argument raised by the Respondent is its inability to sit alongside and give
instructions to its appointed London counsel. The Tribunal is also conscious that all or some
of the Respondent’s experts will also not be able to sit close to the Respondent’s London
counsel during a fully virtual hearing either in relation to the making of submissions or in
relation to the cross examination of the Claimant’s witnesses or in relation to the examination
of any witnesses. The Tribunal does not underestimate in its own mind the practical challenge
that these factors might pose. It is, however, also conscious of the fact that, with various
available methods of instantaneous communication, not limited to email or WhatsApp or
Teams but including also the confidential facilities provided by such platforms as the OPUS 2
virtual platform (which the Tribunal proposes should be used), this challenge should be
capable of being met satisfactorily and without any ensuing unfairness. If additional brief
adjournments were required, in order to assist with the taking of instructions, the Tribunal
would be reasonably flexible in this regard.

21.

The Tribunal must also give proper weight to the demand upon it to conduct the arbitration
so as to avoid unnecessary delay and expense. The Tribunal is conscious of the fact that the
parties have been working hard towards a May hearing and, therefore, should be fully
prepared for such a hearing. It is also conscious of the fact that, if it were to adjourn the
hearing to a date not before 1 October 2021, as indicated above there is no guarantee, even
with the recent arrival of various COVID-19 vaccines, that any such hearing will then be
capable of proceeding on a fully physical basis in London.

22.

It seems to the Tribunal for the reasons identified above that, if it were to accede to the
Respondent’s application to adjourn, that would constitute an unnecessary delay. That,
together with all the reasons above, compels the Tribunal in the exercise of its discretion and
in accordance with the jurisdiction conferred up it, to reject the Respondent’s application for
an adjournment of the hearing in May 2021.

23.

For completeness, we should add that the Respondent also relied, though very much as a
subsidiary argument, on the possibility that an adjourned hearing might benefit from further
evidence received in the §1782 proceedings. We doubt if this is a significantly more realistic
prospect in October than it would be in May. In all the circumstances, this is not a compelling
reason for an adjournment.

24.

It follows, also for the reasons above, that the Tribunal concludes that the hearing should
remain fixed for May 2021 and should proceed on a fully virtual basis.
7

46a

Claimant’s Applications
(a)
25.

Illinois Proceedings

On 26 October 2018, the Respondent filed a subpoena in the US District Court for the Northern
District of Illinois against Boeing to produce documents for use in this arbitration. The
Respondent’s application was made pursuant to USC §1782 (entitled “Assistance to Foreign
and International Tribunals and to Litigants Before Such Tribunals”, “§1782”).

26.

Both the Illinois District Court and the US Court of Appeals for the Seventh Circuit have
rejected the Respondent’s §1782 application on a jurisdictional basis, namely that §1782 does
not apply to international private commercial arbitrations. Neither Court has answered the
question of discretion as to whether, assuming jurisdiction, the document production sought
should be granted.

27.

On 7 December 2020, the Respondent issued a petition for a writ of certiorari to the US
Supreme Court in respect of the US Court of Appeals’ decision. On 10 February 2021, the
Claimant and Boeing filed a joint brief in opposition to the Respondent’s petition to the US
Supreme Court.

28.

There is almost no prospect of the Illinois Proceedings concluding in advance of the May
Hearing. Even if the US Supreme Court were to grant permission to appeal and thereafter
found in the Respondent’s favour on the issue of law on which permission to appeal has been
sought, the Supreme Court would be likely then to remit the question of discretion, as to
whether or not actually to grant production of the documents sought by the Respondent, back
to the District Court in the State of Illinois for determination. Assuming that the Respondent
succeeds in the Supreme Court and the matter is remitted, there is no realistic prospect of the
District Court coming to an adjudication by the time of the May hearing.

29.

The documents sought by the Respondent in the Illinois Proceedings are in substance identical
to those it sought by equivalent requests in its Redfern Schedule in this arbitration. As the
Claimant submits, they fall into one of two categories: either (a) documents that the Tribunal
ordered the Claimant to produce to the Respondent, and which now have been produced; or
(b) documents requested by the Respondent, which the Tribunal rejected on the basis that
those materials were not necessary for the fair disposal of this case.

30.

The Claimant submits that the Illinois Proceedings are unconscionable and should be
restrained; or, if not restrained, that the Tribunal should make a more nuanced order
8

47a

restraining the Respondent from seeking to rely on any documents obtained by it in those
Proceedings for the purposes of this arbitration. The Claimant submits, and there is no
dispute, that the Tribunal has jurisdiction to grant an injunction in the terms it seeks (see
sections 38(1) and 48(5)(a) of the Arbitration Act 1996); and further submits that, in
accordance with the principles set out and applied by the Commercial Court in Omega Group
Holdings v Kozeny [2002] C.L.C. 132 (Peter Gross QC, then sitting as a Deputy High Court
judge), the Tribunal should conclude that the Illinois Proceedings are an attempt to interfere
with the disclosure process in this arbitration by the attempted subversion of the orders and
directions that this Tribunal has already made in relation to disclosure by the Claimant by its
first Interim Award and its Ruling of 2 December 2020.
31.

The Tribunal rejects the Claimant’s application. The Tribunal refers to and relies on the
principles set out in the judgment of Pomfrey J. in the analogous case of Nokia Corp. v
Interdigital Technology Corp. [EWHC] 2920 (Pat) [26], [26], and [32].

32.

As Pomfrey J. said,
“It is for the US court hearing the section 1782 application to decide upon the merits of the
application under US law and to determine the nature and scope of the relief to be granted.
The fact that a party is enabled by exercising those rights to obtain documents and evidence
which would not otherwise be available to it is not a ground for interference by the English
court.”

33.

Pomfrey J. continued,
“… the English court should not seek to circumscribe the discretion possessed by the District
Court by imposing its own view as to the appropriateness of the classes of documents sought
by reference to the issues in proceedings as they stand. It is legitimate for the requesting party
to use the request to ascertain facts and obtain documents of which the requesting party is
unaware, but which may be in the future deployed in the English proceedings, if necessary,
after appropriate amendment. … The question of the extent to which the District Court should
accede to the request is a matter for it alone, on the evidence made available, and the English
court should only interfere of the invocation of the jurisdiction is either contrary to some legal
or equitable right of the other party to the English litigation or is otherwise oppressive or
vexatious or tends to interfere with the due process of the English court.”

9

48a

34.

The Tribunal is of the view that, by exercising a supposed right available to it under US federal
law to obtain documents from a third party (as, in this case, from Boeing), a party to
arbitration proceedings in England is not departing from or interfering with the procedure of
the arbitration proceedings: see Lord Brandon’s speech in South Carolina Insurance Co. v
Assurantie Maatschappij [1997] A.C. 24.

The Respondent’s application in the Illinois

Proceedings is not contrary to the Claimant’s rights and, whatever Boeing might think about
it, is not oppressive or vexatious or unconscionable so far as the Claimant and this arbitration
are concerned.
35.

There is, therefore, no good basis for the Tribunal to interfere with what the Respondent is
seeking to achieve via USC §1782 in Illinois and now before the US Supreme Court. If,
however, the Respondent succeeds in obtaining further material from Boeing in the US via the
Illinois Proceedings before the conclusion of this arbitration, that will not mean that such
material will necessarily be available for the Respondent to deploy in these proceedings. If
that material is not admissible or relevant, it will, in any event, not be admitted in this
arbitration. That, however, is not an issue upon which the Tribunal can or feels that it should
pass any judgment now.

36.

It is sufficient to say that the Claimant’s application in relation to the Illinois Proceedings is
rejected. If and to the extent that the Respondent succeeds in obtaining any material from
the Illinois Proceedings which it then wishes to deploy in this arbitration (assuming that this
arbitration will not already have been concluded), its admission into this arbitration will be a
matter for the Tribunal then to decide.
(b)

37.

South Carolina Proceedings

On 26 October 2018, the Respondent filed an ex parte §1782 application to the US District
Court for the District of South Carolina for subpoenas to take depositions of three Boeing
employees, including Mr Walston. Shortly after the fire on 16 January 2016, which is the
subject of this arbitration, Mr Walston was appointed by Boeing as the chairperson of the
Incident Review Board convened to investigate the cause of the fire and to make
recommendations for avoiding future similar events. As chairperson, Mr Walston led the
investigation, coordinated the efforts of the Board’s members and presented the Board’s
findings to Boeing leadership. Thus, Mr Walston had no involvement in the events that led to
the fire. His role began only after the fire and was apparently confined to the specific tasks
delegated to the Board by Boeing.
10

49a

38.

On 6 November 2018, the US District Court for the District of South Carolina Charleston
Division denied the Respondent’s application on jurisdictional grounds. The Respondent
appealed to the US Court of Appeals for the Fourth Circuit. The Claimant’s motion to intervene
having been granted on 14 January 2019, on 30 March 2020 the Court of Appeals reversed
the District Court and held that the District Court did have jurisdiction under §1782 to grant
the order sought by the Respondent.

39.

Since then, there has been no decision from the District Court. No order has been issued since
August 2020 when the District Court judge requested a second supplemental briefing on a
personal jurisdiction issue.

40.

There is no current indication as to when a determination on the Respondent’s application
might be expected to emerge, although each of the parties has made an approach to the
District Court as to when it would wish the decision to be made. The Tribunal is not aware of
any reaction by the District Court to either approach.

41.

In late September 2020, the Claimant served a seven-page witness statement of twenty-seven
paragraphs from Mr Walston in this arbitration. It appears that the Respondent only learned
that Mr Walston was to be called by the Claimant as a witness in this arbitration after the
reversal by the Court of Appeals referred to above and during a renewed application on 30
June 2020 by the Respondent to the District Court under §1782 to take his deposition. During
the course of that application, the Claimant and Boeing apparently said that they would
ensure that Mr Walston and another witness, Mr Sharkshnas, (whose precise whereabouts
are, in fact, presently unknown) would testify in the arbitration.

42.

The Claimant says, relying on Omega Group Holdings v Kozeny (loc. cit.), that the Respondent’s
application to depose Mr Walston in South Carolina is unconscionable and abusive because
the Respondent will have the opportunity to cross examine Mr Walston at the May hearing,
which, it says, is the proper forum for any questioning of the witness. It submits that there is,
therefore, no need for the Respondent to depose Mr Walston in South Carolina. The Claimant
also suggests that, if deposed in South Carolina, there is a real risk of Mr Walston being
discouraged from giving evidence to the Tribunal in this arbitration in May of this year.

43.

The launching by the Respondent of the §1782 application in South Carolina was plainly
appropriate, given that, at the time when it was issued (and, it appears, until late June 2020)
the Respondent did not know that the Claimant was proposing to call Mr Walston as a witness
in this arbitration.
11

50a

44.

There is no reason to suppose that Mr Walston (unlike, apparently, Mr Sharkshnas) will not
be produced by the Claimant to give evidence to the Tribunal in May of this year when the
arbitration hearing takes place. Likewise, however, there is no reason to suppose (and no
evidence has been produced to suggest) that, if Mr Walston were to be deposed by the
Respondent in South Carolina ahead of the May hearing, he would be disinclined to give
evidence at the arbitration or that Boeing, whose employee he is, would so act as to prevent
him from then giving such evidence.

45.

There is, in any event, no indication that the District Court will be coming to any decision on
the Respondent’s §1782 application in the near future, or at any time before the May hearing
or the conclusion of this reference. Therefore, any forensic unfairness that might conceivably
otherwise arise by permitting the Respondent some form of pre-hearing cross examination of
Mr Walston is entirely speculative. Moreover, given (i) that the South Carolina Proceedings
have been on foot for so long, (ii) that the District Court is fully seized of the Respondent’s
application and not only the Claimant’s but also Boeing’s opposition to it, and (iii) that the
District Court has a discretion whether or not to grant the application in the light of the
Claimant’s avowed intention to call Mr Walston as a witness in the arbitration (in addition to
other matters), it seems to the Tribunal that, if the Respondent is to be denied the opportunity
to take Mr Walston’s deposition, that is a decision more appropriately to be made by the
District Court than itself. If, perchance, a deposition of Mr Walston is taken before the May
2021 hearing in this arbitration, the admission or non-admission of any evidence it contains
will be a matter for the Tribunal then to determine. It is neither appropriate nor sensible for
the Tribunal to entertain any speculative issue that might arise in relation to such evidence at
this stage.

46.

The Tribunal is, therefore, unpersuaded that it is appropriate or necessary or fair, applying the
principles set out in Omega Group Holdings v Kozeny (loc. cit.), followed by Langley J. in
Benfield Holdings v Aon [2007] EWHC 171 (QB), to grant to the Claimant the injunctive relief
that it seeks. As in relation to Illinois (see paragraphs 35-36 above), the Tribunal is not going
to rule now as to the usefulness or admissibility of any evidence that might be obtained.

47.

Accordingly, for the reasons above, the Claimant’s application in relation to the South Carolina
Proceedings is rejected.

12

51a

Orders
48.

The decisions to which the Tribunal has come, and the Orders that it makes, are as follows:
1.

The Respondent’s application to adjourn the substantive hearing of this arbitration

from 10 – 21 May 2021 to the first available date on and after 1 October 2021 is rejected.
2.

The Claimant’s applications to restrain the Respondent from taking any further

steps in, and to discontinue, its §1782 proceedings in the states of Illinois and South Carolina
of the United States are rejected.
3.

The Claimant’s applications in relation to the deployment by the Respondent, and

the reception by the Tribunal, of any documents or evidence sought by the Respondent in
the Illinois Proceedings or any deposition or evidence of Mr Walston in the South Carolina
Proceedings are rejected.

Dated in England: 9 March 2021

Gavin Kealey Q.C.
On behalf of the Tribunal: Gavin Kealey QC, Michael Crane QC and William Wood QC.

13

52a

IN THE MATTER OF AN ARBITRATION UNDER THE ARBITRATION RULES
OF THE CHARTERED INSTITUTE OF ARBITRATORS
BETWEEN
ROLLS-ROYCE PLC
Claimant
-andSERVOTRONICS INC
Respondent
___________________________________________________________________________
SKELETON ARGUMENT OF THE RESPONDENT
for the application hearing on 4 March 2021

Introduction
1. There are two sets of applications before the Tribunal:

1.1. The Respondent applies for a short adjournment of the substantive hearing in this
arbitration, from May 2021 to October 2021, so that it may take place in person and
with the benefit of any evidence obtained from Boeing pursuant to the Respondent’s
outstanding applications under 28 USC § 1782 in Illinois, South Carolina and
Minnesota.1 In contrast, the Claimant seeks an order that the hearing takes place
remotely on the existing timetable.

1.2. The Claimant also seeks an order restraining the Respondent from pursuing the Illinois
and South Carolina Proceedings, even though the Claimant has been on notice of these
proceedings since October 2018. Alternatively, the Claimant invites the Tribunal to
rule, pre-emptively, on the necessity and admissibility of any documentary or witness
evidence that might be produced by those proceedings. The Respondent opposes these
applications such that the US Proceedings may continue and that it may apply to seek
to adduce any relevant evidence that it obtains.
Respectively, the “Illinois Proceedings,” the “South Carolina Proceedings,” and the “Minnesota
Proceedings,” together the “US Proceedings.”
1

1

53a

2. In terms of pre-reading, the Tribunal is likely to be most assisted by reading the skeletons
and authorities referenced therein. In addition, it is respectfully suggested that the Tribunal
may wish to read the pleadings and the Illinois document subpoena.

Adjournment of the substantive hearing
Background to the application
3. The parties agreed to arbitrate the present dispute in London due to its geographical
convenience for an in-person hearing.2 However, England is currently under a nationwide
“lockdown” and there are extensive restrictions on travel into the country.3 The Prime
Minister has warned that the current restrictions will be eased cautiously, and this has been
reflected in the “road map” published by HM Government on 22 February 2021. While it
is expected that lockdown restrictions will be relaxed to an extent in the coming months, it
is extremely unlikely that a 10-day in-person hearing involving participants from the US
and Canada could take place in London in early May 2021.
4. Yet, there does now appear to be a clear end in sight for England’s Covid-19 restrictions.
A number of vaccines against Covid-19 have now been developed and approved, and a
large-scale vaccination programme is underway. The UK has secured access to 367 million
vaccine doses, including 100 million doses of the Oxford/Astra-Zeneca vaccine, which is
being manufactured entirely in the UK.4 More than 20 million vaccine doses have already
been administered to those most at risk of severe infection5 and the Department of Health
and Social Care projects that, by the autumn of this year, all adults in the UK can be
vaccinated.6 Senior UK Government figures have expressed that the vaccination
programme will permit the “irreversible” easing of Covid-19 restrictions in the coming
months7 and aim to resume “normal” life by 21 June 2021. In the circumstances, it is
reasonable to expect that the parties will be able to proceed with an in-person hearing in
the autumn.
2

Notice of Arbitration at para 7.3, Response to Notice of Arbitration at para J.
https://www.gov.uk/coronavirus
4
https://www.gov.uk/government/publications/uk-covid-19-vaccines-delivery-plan at pp.11-12, 15 and 21.
5
https://coronavirus.data.gov.uk/details/vaccinations
6
https://www.gov.uk/government/publications/uk-covid-19-vaccines-delivery-plan at paras 2.20, 5.10 and the
Ministerial Foreword.
7
Per the Prime Minister, quoted by the BBC: https://www.bbc.co.uk/news/uk-56095552. The Deputy Chief
Scientific Adviser is quoted as using the term “irrevocable.”
3

2

54a

5. The Tribunal must therefore decide between holding a remote (or largely remote) hearing
in May 2021 involving participants in several countries with different time zones, while
still adhering to social distancing protocols in their respective homes, or granting a short
adjournment of five months (it is expected) to allow for an in-person hearing in the autumn
of this year. For the reasons set out more fully below, the Respondent submits that the most
appropriate course would be to grant its application for an adjournment.
Framework for the Tribunal’s decision
Applicable rules and principles
6. It is acknowledged that the Tribunal has broad powers to determine the form and timing of
hearings under Arts. 17 and 28 of the CIArb Arbitration Rules dated 1 December 2015
(“CIArb Rules”) and s. 34(2) of the Arbitration Act 1996 (“AA 1996”). These powers,
however, are subject to the Tribunal’s general duty under s. 33(1) AA 1996 to act fairly as
between the parties and to adopt “procedures suitable to the circumstances of the particular
case,” and to its duty under Art. 17(1) of the CIArb Rules to treat the parties equally. The
Tribunal is also bound by Article 6 of the European Convention on Human Rights to ensure
a fair trial between the parties. Whilst the Article refers to justice within a “reasonable
time,” it is submitted that a hearing in October readily meets this requirement.

7. Overall, the Tribunal must ensure a fair hearing.

The burden of persuasion
8. Where the parties disagree over whether there should be a remote hearing, it is important
to determine which party has the burden of persuasion and what standard the Tribunal
should apply in deciding whether to proceed remotely. These are not matters addressed by
the CIArb Rules or AA 1996 and there is no consensus in the wider arbitration community
as to the approach that should be taken.8

9. Some guidance may be drawn from the practice of the English courts. Prior to the Covid19 pandemic, where an order was sought for a party to participate in proceedings by video
8

‘Remote hearings in international arbitration—a practical guide’ Lexis PSL.

3

55a

link, the courts required to be persuaded that there was a good reason for making the order.9
The Respondent acknowledges that the courts have become more willing to hold remote
hearings during the pandemic. However, they have not simply reversed the burden of
persuasion. Rather, as the Court of Appeal explained in Re A (Children),10 the decision
whether to proceed with a remote hearing requires a multi-factorial assessment to be carried
out on a case-by-case basis. The need for social distancing in the current pandemic is plainly
a significant factor in that assessment.11 Yet, even in this context, the courts have
recognised that there are cases where adjournment is more appropriate than proceeding
remotely, particularly where the relevant hearing would involve live evidence from factual
or expert witnesses.12 In this case, there are substantial areas of factual and expert opinion
disputes between the parties which this Tribunal will have to determine.
10. There is academic support for arbitral tribunals to undertake a similar “overall balancing
exercise”, weighing the potential benefits of a remote hearing against the potential
prejudice to any party.13 The Respondent submits that this is the approach which should be
adopted in order to be consistent with the Tribunal’s general duty under s. 33(1) AA 1996.
This Tribunal must therefore be persuaded that a remote hearing should take place.
11. Whilst there have been decisions where remote hearings have been ordered, they are not
necessarily comparable to the situation which arises in relation to the determination of this
dispute. For example, whilst the Austrian Supreme Court recently held (in Docket 18 ONc
3/20s) that a hearing should go ahead remotely in the International Court of Arbitration of
the Austrian Chamber of Commerce, this concerned with a one-day hearing that was not
the final determination of the dispute. In One Blackfriars (In Liquidation) [2020] EWHC
845 (Ch) an adjournment was refused because the challenges presented by a remote hearing

9

The Three Mile Inn v Daley [2012] EWCA Civ 970, per Kitchin LJ at paras 11-12.
[2020] EWCA Civ 583, at paras 9-10; cited by Marcus Smith J in Bilta (UK) Ltd (in liquidation) and others v
SVS Securities plc and others [2021] EWHC 36 (Ch). Note that although the decision not to adjourn this trial
was overturned on appeal, that was on the very specific new development that a witness who was previously
thought unable to give evidence had a change in prognosis that meant she would in fact be able to attend if the
trial was adjourned past September 2021: [2021] EWCA Civ 221.
11
As noted by Marcus Smith J in Bilta (UK) Ltd (in liquidation) and others v SVS Securities plc and others [2021]
EWHC 36 (Ch), at [15] the pre-pandemic authorities on adjournment are not apposite to the question of
adjournment in the pandemic.
12
Municipio de Mariana & Others v. BHP Group PLC (2020) EWHC 928 TCC, at 24(v); Bilta (UK) Ltd (in
liquidation) and others v SVS Securities plc and others [2021] EWHC 36 (Ch) at para 14(3)(a).
13
Scherer, M. ‘Chapter 4: The Legal Framework of Remote Hearings’, in Scherer M., Bassiri N., et al. (eds),
International Arbitration and the COVID-19 Revolution, (Kluwer Law International 2020) pp. 65 - 104, at para
5.2.2.
13
Notice of Arbitration at para 7.3, Response to Notice of Arbitration at para J.
10

4

56a

applied to both sides equally; and in Municipio de Mariana v BHP Group plc [2020]
EWHC 928 an adjournment was refused but in circumstances where there was no live
evidence.14 As set out in further detail in the following paragraphs, this is an evidence heavy
dispute where the challenges of a remote hearing will fall disproportionately on the
Respondent.

12. Moreover, some of these decisions were made when the end point of the pandemic was
unknown, and any widely-available treatment, let alone a vaccine, simply did not exist. As
discussed above, there is now a broad-based world-wide vaccine effort underway.
Therefore, it is likely that travel restrictions will ease, and more importantly, travel will be
safe, in the coming months.
The present dispute is not suitable for a remote hearing
Cross-examination of factual witnesses
13. In the present case there are eight factual witnesses, all of whom have been called by the
Claimant.15 As a result, any impediment to effective cross-examination caused by a remote
hearing will disproportionately harm the Respondent. Taking account of the Tribunal’s Art.
17 duty to treat the parties equally, this is factor which should be given substantial weight
in assessing whether to proceed remotely.
14. It is well recognised that the remote cross-examination of witnesses is inferior to crossexamination in person as a means of taking evidence:
14.1. Even in the context of Covid-19, the English courts have commented that “oral
evidence given under cross-examination is the gold standard because it reflects the
long-established common law consensus that the best way of assessing the reliability
of evidence is by confronting the witness”16 and, further, that “any form of artificial
intermediation interposed between the questioners of a witness and the judge
At [47] As HHJ Judge Eyre QC stated “the determination of the issue will involve judicial reading of that
materials and of the parties’ skeleton arguments with subsequent oral submissions and argument.”
15
Alistair Allan, Rolls-Royce employee, James Singleton, Rolls-Royce, Nick Salmon, Rolls-Royce, Scott
Walston, Lead IRB Investigator Boeing (promised by counsel to appear in the procedures and recently noted as
still employed by Boeing), Alan Sharkshnas, Boeing (promised by counsel to appear at the Hearing, but has
since left Boeing’s employ and cannot be located),Tom Altamuro, Boeing, Robert Hooge, Boeing, Sean
Highsmith, Boeing.
16
R (Dutta) v. General Medical Council [2020] EWHC 1974 (Admin) 414 at para 39(iii).
14

5

57a

hearing that witnesses evidence must be a derogation from the “gold standard””
(original emphasis).17
14.2. Whilst the English Civil Procedure Rules (“CPR”) recognise the relative
convenience and cost-effectiveness of videoconferencing, they warn that “[i]ts
convenience should not …be allowed to dictate its use,” since it compares
unfavourably with the hearing of witnesses in a physical courtroom.18 The CPR
notes, in particular, the more limited degree of control that a court is able to exercise
over a witness at a remote site and the “tendency to ‘speak over’ the witness” caused
by sound delays “even with the most advanced systems currently available.”19
14.3. Such concerns have been borne out in practice, with Birss J recently criticising the
“real flaws” in a remote cross-examination where “the system often had an
appreciable delay, not always obvious to the cross-examiner, which meant that the
witness and the cross-examiner were at cross-purposes.”20
14.4. The Federal Court of Australia has also commented that video link evidence presents
the court with a less satisfactory environment in which to assess “the nature, quality
and reliability of responses by a witness, both to questions and to the overall
situation presented by the necessity to give evidence in court,” in part due to the loss
of “’chemistry’ in oral interchanges in a courtroom, whether between a judge and
counsel …or between cross-examiner and witness.”21 It has also recognised that the
technical difficulties associated with video link evidence “are considerable and
markedly interfere with the giving of the evidence and, particularly, with crossexamination,” making it difficult for the tribunal to assess witness evidence and, in
particular, issues of credibility.22
14.5. Making similar observations in 2018, the Singapore International Court stressed that
effective cross-examination could be “frustrated” by video link evidence, giving the
example that “it might be unclear whether the witness’s or expert’s delay in

17

Bilta (UK) Ltd (in liquidation) and others v SVS Securities plc and others [2021] EWHC 36 (Ch) at para
14(4).
18
Annex 3 to CPR Practice Direction 32, para 2.
19
Ibid, paras 2, 5 and 6.
20
Invista Textiles UK Ltd v Botes [2019] EWHC 58 (Ch) at para 72.
21
Campaign Master (UK) Ltd. v. Forty Two International Pty Ltd. (No 3) [2009] FCA 1306 at para 77.
22
Dorajay Pty Ltd. v. Aristocrat Leisure Ltd [2007] FCA 1502, at paras 7-8.

6

58a

answering questions is due to his or her evasiveness or to technological issues and
delay in signal.”23
14.6. Users of remote hearings during the current pandemic have encountered these and
further difficulties with cross-examination, due to the nature of videoconferencing
as a “single channel communication” which lacks non-verbal cues, implies a “take
turn to speak” process and impedes spontaneous interjection.24 Concerns have also
been expressed that witnesses who do not feel comfortable during cross-examination
will “hide behind bad connectivity or ‘unintentionally’ switch off their cameras.”25
14.7. Within the arbitration community, there are also questions as to whether different
approaches to how witnesses are seen and heard (i.e. the screen view, the use of
different cameras and camera angles, lighting, backgrounds, the use of
microphones/speakers/headsets, the quality or resolution of the image, and
synchronization between the audio and video, etc.) could affect how those witnesses
are perceived by the tribunal.26
15. These are concerns which the Tribunal should have at the front of its mind when assessing
whether a remote hearing can be fair in these proceedings when such a lot will turn on the
evidence that the witnesses have to give.

16. The fair presentation of the Respondent’s defence will depend heavily on the quality of
factual evidence obtained under cross-examination. The Respondent’s case centres on the
alleged negligence of a number of the Claimant’s witnesses, whose statements to the
Tribunal not only extend beyond their own contemporaneous statements, but also conflict
materially with the contemporaneous accounts of other members of the Boeing
troubleshooting team who were present during the relevant events. For instance:
16.1. In his witness statement, Alan Sharkshnas the Lead Engine Runner, claims that
everyone present during the Engine tests was “fully briefed” and “experienced with

23

Bachmeer Capital Ltd. v. Ong Chih Ching [2018] SGHC(I) 01 Suit No. 2 of 2017 (Summons No. 2 of 2018),
para 18 (Singapore International Commercial Court).
24
H Lal, ‘Virtual hearings: inflammatory markers in favour of in-person hearings’ (2020) 31 10 Cons.Law 4 (1),
p. 7.
25
Ibid.
26
‘Remote hearings in international arbitration—a practical guide’ Lexis PSL.

7

59a

engine runs” and “followed all standard procedures.”27 This flatly contradicts the
contemporaneous accounts of Ben Williamson (who said he was “not engine run
trained” and considered that he “don’t need to know anything about [an] engine run
[because he is] not touching switches”), Anthony Massaro (who said he was “not
engine run trained,” did not have any training to assist in an engine run and was “not
familiar with engine runs at Boeing”), and Bruce Holden (whose described his total
relevant experience as being “involved [in] 2 other occasions on [the] Flight Deck”
and said he “[didn’t] look at checklists” and “[didn’t] know [the engine start]
sequence”).28 The Respondent’s human factors expert has described Mr
Sharkshnas’s evidence on this point as “totally misleading”.29

16.2. The notes of a contemporaneous interview with another member of the Boeing team,
Chris Neal, record his impression that there was “pressure” to fly on 16 January
despite concerns about a fuel leak the previous day.30 He also describes a
disagreement between his immediate supervisor and more senior management as to
whether the fuel leak on 15 January should be documented.31 In sharp contrast, the
Claimant’s witnesses have adopted the common position that there was no such
pressure32 and that there was never any need to document the fuel leak.33
17. The adequacy of the training and experience of the Boeing personnel involved in
troubleshooting fuel flow issues with the Engine bears directly on the Respondent’s defence
that the numerous negligent acts and omissions broke the chain of causation to the fire
event involving the Engine.34 Similarly, the Respondent specifically alleges that proper
troubleshooting measures were not taken because of pressure from senior management at
Boeing not to delay the delivery of the Aircraft.35 It is vital that, on these contested matters,
the Tribunal is properly able to scrutinise the demeanour and reactions of the witnesses
under cross-examination and that, in the Tribunal’s assessment of their credibility, difficult

27

At para 23 (Tab 22).
To be added to the bundle.
29
(Tab 26).
30
To be added to the bundle.
31
To be added to the bundle.
32
See, e.g. statement of Alan Sharkshnas (Tab 22) at para 20; statement of Tom Altamuro (Tab 21) at para 22;
statement of Robert Hoodge (Tab 20) at para 14.
33
See, e.g. statement of Alan Sharkshnas (Tab 22) at para 20; statement of Tom Altamuro (Tab 21) at paras 6-9;
statement of Nicholas Salmon (Tab 24) at paras 15-19
34
See, e.g. Statement of Defence (Tab 4) paras 4, 5, 19, 23, 29, 33, 34-46, 60-61.
35
Statement of Defence (Tab 4), paras 24, 42.
28

8

60a

or evasive witnesses do not benefit from any doubt that their testimony could have been
affected by sound delays or other technological disruption.

18. This issue takes on greater importance in the wake of a filing by Rolls-Royce in the District
Court of South Carolina informing the Court that Alan Sharkshnas left Boeing’s employ
on about 16 January 2021 and that as of 23 February 2021, counsel for Boeing and RollsRoyce have been unable to locate or contact Mr. Sharkshnas.

19. In June 2020, Counsel for Rolls-Royce promised the District Court of South Carolina to
produce Alan Sharkshnas and Scott Walston to testify during the hearing, stating:
“And as party witnesses, the procedure in the arbitration would be that RollsRoyce would present Servotronics with written statements of these witnesses in
terms of the evidence Rolls-Royce intends to submit. Servotronics will then have
the opportunity to cross-examine the witnesses, but at the actual arbitration
hearing with the panel hearing the cross-examination, with the panel judging
the demeanour of the witnesses during the cross-examination, and the panel will
also have an opportunity to examine the witnesses as well.”36
20. These developments have the potential to severely hamper the Respondent’s right to crossexamine Mr. Sharksnas with respect to the conflicts in his post-event statement, but also
those made by others on scene after the event. The Claimant’s Expert, Martin Keeping,
relies heavily upon the Tribunal Statement of Mr. Sharkshnas, and does not address the
discrepancies between the post-event statements and those submitted to the Tribunal. He is
a key witness.

The integrity of witness evidence
21. Remote hearings necessarily reduce the tribunal’s ability to supervise and control witness
behaviour. Specifically, there is a risk that witnesses may be coached remotely, may have
access to notes or other aids during their testimony, may confer with one another during
video breaks, or may be the subject of undue influence by persons not visible to the tribunal
(whether in person or by means of electronic communication). Such behaviour plainly
threatens the integrity of witness evidence. Even the possibility that it might be taking place
casts doubt on the soundness and utility of remote testimony. Again, these are matters

36

See Transcript of 30 June Hearing before Judge David Norton.

9

61a

which disproportionately affect the Respondent, being the only party faced with crossexamining factual witnesses.
22. Practical measures have been suggested to address some of these concerns, such as
requiring witnesses to turn their cameras around to display their surroundings. However, in
circumstances where witnesses may have several screens in front of them, it is simply not
possible to exclude the possibility of interference through instant messaging, a script, or
other electronic means.
23. Such risks are judicially recognised37 and, in the circumstances of the present dispute, are
more than merely theoretical. There is a live issue between the parties as to the training and
competence of the crew, and whether there was undue management pressure on Boeing
personnel (including some of the Claimant’s witnesses) not to document or address safety
concerns prior to Flight C1.38 The inability to control the witnesses is another matter which
militates against a remote hearing.
Effective presentation of expert evidence
24. The parties propose to adduce the evidence of six experts in complex and technical fields.
The expert reports served to date are voluminous, each with multiple figures, annexes and
exhibits.
25. To engage with the experts’ opinions and reach conclusions on the areas where they
diverge, the Tribunal will need to be taken through a great deal of background information
relating to the operation and maintenance of a Boeing 787 Dreamliner aircraft and the
Rolls-Royce Trent 1000 engines. The Respondent expert witness, Larry Vance, has
presented a detailed report of the chain of events leading to the Engine Tailpipe Fire
demonstrated in two TELANS and a video and CVR transcript based on after-event
statements from witnesses, EAFR data analysis of flights, Boeing Manuals, procedures and
checklists.

26. Mr. Keeping has relied upon statements submitted to the Tribunal by several witnesses and
his own experience in conducting engine runs.

37
38

Navigator Equities Ltd v Deripaska [2020] EWHC 1798 (Comm), at para 9.
Statement of Defence (tab 4), paras 24, 42; Reply (Tab 5), paras 12.5, 22.2, 25.4.

10

62a

27. The differences in these two expert Reports highlight the need for in-person testimony. The
Claimant and the Respondent dispute the cause of the tailpipe fire and the Respondent
alleges that it was the Boeing Troubleshooting Team who caused the tailpipe fire event
because of their negligent actions.
28. Proving causation will require presenting extensive, and highly technical, evidence to the
Tribunal so that it can traverse the events of the 16 January, which will involve the
configuration and working of the Hydro Mechanical Unit (HMU), the Fuel Metering Valve
(FMV) of the Engine and the application of the various Manuals, including the Fault
Isolation Manual (FIM) in regard to the Maintenance message displayed, the engine
Autostart Procedure with the attendant notifications as to whether the engine was
responding correctly, and the emergency procedures that should have been followed from
the very beginning of the Engine Start.
29. These are not matters that are readily amenable to remote explanation. Time lags in audio
exchanges between counsel and an expert, or between the Tribunal and an expert, are liable
to reduce spontaneous questioning, with the attendant risk that the Tribunal does not fully
obtain the benefit of the expert evidence in these proceedings. These risks are heightened
by the fact that there are serious issues between the experts, as reflected in the supplemental
reports served on 19 February 2021. Whilst it is hoped that the meetings and joint
memoranda will reduce some of the issues between them before the hearing of this matter,
the Tribunal will have to make a series of important decisions about which evidence to
prefer.
30. A remote hearing threatens the efficient handling of exhibits with both experts and the
Tribunal limited by their respective technological setups.

31. Given the volume, complexity and significance of the expert evidence in these proceedings,
it is plainly unsuitable for a remote hearing. Whilst both parties may be impacted by the
effect on expert evidence (assuming that the hearing was to be fully remote), that does not
lessen its weight. That the expert evidence from each party would be equally difficult for
the Tribunal to follow is no reason to support the Claimant’s application.

11

63a

Access to counsel
32. The Claimant’s representatives and its legal and counsel team are all based in the UK, as is
the Tribunal. As such, the Claimant faces no difficulties with following the proceedings
and giving instructions to its lawyers in real time. In fact, it would be straightforward for
the Claimant’s representatives to be gathered in the same physical location as its legal and
counsel team for the duration of the hearing.

33. This is not an advantage shared by the Respondent, which is based in Buffalo, New York
with a legal team split between London and New York City. Whilst it would theoretically
be possible for the Claimant’s representatives and solicitors to travel to London in order to
follow the hearing live and consult with the counsel team in person, this assumes that this
poses no health risk to any of the individuals who may not yet be able to travel in light of
individual health concerns. Indeed, remote work and social distancing are still enforced in
the State of New York
34. This assumption also presumes that any of the Respondent’s representatives, counsel or
expert witnesses will not have travelled through any country on the UK Government’s “red
list” (which is regularly updated at short notice) in the preceding ten days. Further, the
travel restrictions currently in force in England would require each individual to self-isolate
for a minimum period of between five and ten days upon arrival (or longer, depending on
the results of compulsory Covid-19 tests taken during the initial isolation period).39 As
such, there is no guarantee that those individuals would even be able to meet with the
counsel team in person. There would also be considerable difficulty involved in finding
them suitable accommodation and working space at a time when most hospitality venues
and offices in England are closed.

35. It is inherently unfair that one party should be able to consult with its legal and counsel
team in person throughout the hearing, while the other cannot. Such unfairness is only
exacerbated by the five-hour time difference between New York and London. With the
majority of participants based in London, it is likely that the sitting hours would be closer
to English business hours than to New York business hours, leaving the Respondent and its

39

https://www.gov.uk/uk-border-control

12

64a

solicitors less able to follow the hearing and react in real time. Even if the sitting hours
were significantly modified to accommodate the Respondent it is likely to lead to serious
practical problems.

36. The impact of the Tribunal ordering that this hearing should go ahead is that it will put the
Respondent’s legal team in the deeply invidious position of deciding between whether they
allow their client be disadvantaged by the split of their legal team or to put their health at
risk by travelling to London to all be in one place.

37. If the hearing were to be conducted remotely, it is likely that shorter sitting days would be
required, with more breaks, in accordance with The Vienna Protocol. 40 The sitting hours
would also need to be amended to account for the time zones of the Respondent and the
various factual and expert witnesses. As a result, the overall hearing length would need to
be extended. Depending on the participants’ availability outside the original hearing
window, this could require the Tribunal to sit on non-consecutive days. It might even be
necessary to hear evidence out of sequence in order to accommodate time differences,
availability issues and technical problems.

38. In contrast, an in person-hearing could be expected to take place within the original time
estimate of ten days and during ordinary London working hours, with all participants
operating from the same time zone.

A partially remote hearing would unfairly prejudice the Respondent
39. As noted, in the present proceedings there is a natural geographical bias in favour of the
Claimant, since its representatives, legal and counsel team are already based in the UK. Its
expert witnesses are also based in the UK and it has no factual witnesses to cross-examine.
Accordingly, in a partially remote hearing, the Claimant could conceivably present its
entire case to the Tribunal in person. Even if the Respondent’s expert witnesses were to
appear remotely, the Claimant’s cross-examination could be conducted from the same room
as the Tribunal, with the Claimant’s representatives and legal team able to observe the
reactions of the Tribunal in person.

40

At III-1.

13

65a

40. By contrast, the Respondent, whose representatives and solicitors are based in New York,
proposes to call expert witnesses based in various locations across the UK, US and Canada
and to cross-examine six factual witnesses based in the US, and two in the UK. A partially
remote hearing which provides for the Respondent’s experts and/or the Claimant’s factual
witnesses to appear by video-link would cause considerable procedural unfairness to the
Respondent. The prejudice occasioned by remote cross-examination of the factual
witnesses would be the same as under a fully remote hearing. However, the position with
respect to expert evidence would be even worse if it were only the Respondent’s experts
who had to give evidence remotely. All of the disadvantages described above with respect
to the difficulty of communicating complex concepts and managing documents remotely
would apply to the Respondent’s experts but not to the Claimant’s. In the circumstances, it
would be inconsistent with the Tribunal’s mandatory duties of fairness and equal treatment
to hold the substantive hearing on a partially remote basis.

Conclusion of the Illinois and Minnesota Proceedings
41. As explained more fully below, the Respondent seeks supplemental disclosure from Boeing
for the purposes of this arbitration by means of the Illinois Proceedings. The Respondent’s
application in those proceedings was quashed and the US Court of Appeals for the Seventh
Circuit affirmed that decision. However, at a conference on 5 March 2021, the US Supreme
Court is set to consider the Respondent’s petition for a review of the Seventh Circuit’s
decision. If the Supreme Court agrees to the review, this process is unlikely to conclude
before 10 May 2021. However, there is a good prospect that it can be determined by the
Fall Term of the US Courts. As such, if the Tribunal were to adjourn the May hearing, the
rescheduled hearing could take place in the light of any further relevant evidence obtained
from Boeing pursuant to the Illinois Proceedings.

42. In the recently filed Minnesota 1782 Proceedings, the Respondent seeks the oral deposition
of Mr Terrence Shifley, who was the ground observer during the attempted Engine run
prior to the tailpipe fire. Despite the obvious relevance of his testimony to these
proceedings, and contrary to representations made by the Claimant’s US counsel in the
South Carolina proceedings, the Claimant has not called him as a witness. The Respondent
is in the process of subpoenaing Mr. Shifley and is awaiting a decision from the District
14

66a

Court. As such, a rescheduled hearing in the autumn could benefit from Mr Shifley’s
evidence on the contentious matters identified above.

The Claimant would not be prejudiced by a short adjournment
43. In the context of the present proceedings, an adjournment of five months poses no prejudice
to the Claimant. As stated earlier, the claim is one of subrogation for a monetary award and
the Claimant has not pursued it with any urgency, leaving eight months between the service
of its Notice of Arbitration and its eventual Statement of Claim. The Claimant first sent a
letter demanding payment on 26 April 2017. It was seventeen moths after this in September
2018 that the Claimant filed its Notice of Arbitration.

44. The timetable to trial has not so far been affected by the Covid-19 pandemic, having been
revised primarily to accommodate the Claimant’s own failure to comply with an order to
produce documents, including the EAFR data, until October and December of last year.
45. The Claimant has suggested that it would not be “proportionate” for witnesses located
abroad to be required to travel to an in-person hearing. If this is a reference to the witnesses’
travel and accommodation costs, such costs must be assessed in the context of the litigation
as a whole, in which the Claimant seeks damages of more than USD 12 million.41
Moreover, this position contravenes the Claimant’s promises to the U.S. District Court of
South Carolina to bring the witnesses in the U.S. to London for the Hearing, and its
agreement to an in-person hearing in the first instance.

46. If it is a reference to the current requirements for travellers from the US to quarantine on
arrival in England, this fails to engage with the strong prospect that such restrictions (which
have already been reduced by the Test to Release scheme) will be lifted by October 2021
as the UK vaccination programme continues. In any case, it is always more onerous to
require witnesses to attend a hearing in person, but this remains the preferred means of
evidence taking in most proceedings for the reasons set out above. The Respondent relies
on those reasons to object to any application by the Claimant that the witnesses of fact it is
calling should give evidence by video link.

41

See, e.g. the approach of Stewart J in Kimathi v Foreign and Commonwealth Office [2015] EWHC 3684 (QB)
at paras 26 and 30.

15

67a

47. Nor does the timing of the Respondent’s application cause the Claimant any prejudice.
During the Covid-19 pandemic, the English courts have stressed the need to assess the
prevailing circumstances “from day to day,” as these are likely to change “rapidly”.42 The
Respondent raised its concerns about the viability of the May 2021 hearing in December
2020, as London was placed into Tier 4 measures (largely approximating the current
national lockdown).43 Prior to this, London had seen months of relaxed restrictions and
overseas travel, with a short “circuit-breaker” lockdown followed by a return to Tier 2
measures in early December. The Prime Minister’s announcement on 19 December44 that
a highly transmissible new variant of Covid-19 was spreading rapidly in London changed
the landscape for the months ahead. Any suggestion that the Respondent could or should
have raised concerns about the May hearing at an earlier stage is misguided. In any case,
the effect of the Respondent’s application (i.e. to adjourn the hearing) would have been the
same whenever it was raised.
Adjournment comports with notions of equity and fairness
48. Whilst it is understood that the tribunal may direct that witnesses, including expert
witnesses, be examined through means of telecommunication that do not require their
physical presence at the hearing (such as videoconference),45 and the powers granted to the
Tribunal under AA 1996 to decide matters of evidence and procedure are expansive, there
remains the direction that the Tribunal exercise those “general powers as it considers
appropriate…and to provide a fair and efficient process for dispute resolutions where the
parties have equal opportunity to present their respective cases.” 46

49. The Respondent has made its application to ensure that the Hearing is conducted fairly,
efficiently, and without prejudice. The Claimant and the Respondent agreed to an in-person
hearing for a period of 10 days, knowing that there would be complicated technical factual
details and processes to present.

The President’s Guidance on Remote Hearings, COVID-19: National Guidance for the Family Court issued
on 19 March 2020 ([2020] Fam Law 550), at para 10.
43
https://www.gov.uk/government/speeches/prime-ministers-statement-on-coronavirus-covid-19-19-december2020
44
Ibid.
45
CIArb Art. 28
46
CIArb Art. 17
42

16

68a

50. Moreover, it must be considered that whilst some guidance on the factors relevant to the
Tribunal’s decision can be taken from recent court decisions, there remains a difference in
nature between court proceedings, which are public and mandatory, and arbitral
proceedings, which are private and consensual.
51. The fundamental importance of party consent in English arbitration is apparent from
section 1(b) AA 1996, which provides that the parties should be free to agree how their
disputes are resolved, subject only to such safeguards as are necessary in the public interest.
The DAC report which preceded AA 1996 recorded the rationale for this provision as
follows: “…An arbitration under an arbitration agreement is a consensual process. The
parties have agreed to resolve their disputes by their own chosen means. Unless the public
interest otherwise dictates, this has two main consequences. Firstly, the parties should be
held to their agreement and secondly, it should in the first instance be for the parties to
decide how their arbitration should be conducted.”47
52. The same principles underpin the CIArb’s Guidance Note on Remote Hearings, published
on 8 April 2020. This provides that “[i]n the context of both current and future proceedings
it is important to demonstrate parties’ affirmative agreement to the use of a particular type
of remote proceeding.”48 Further, the appended checklist for parties contemplating remote
proceedings includes making “[a] record of parties’ affirmative agreement to use remote
proceedings.”49
53. Whilst the Tribunal must of course resolve the immediate case management dispute
between the parties, it should be mindful that what the Claimant proposes is a deviation
from the (expressly) agreed position to hold an in-person hearing in London and that the
Respondent does not consent to a hearing that is remote in nature. The Respondent’s
application does not involve any deviation from the agreed nature of the arbitration, only a
short postponement, so that the arbitration can take place in person as has been agreed, in
the most effective and efficient manner, and ensuring the integrity of the proceedings.

47

The 1996 DAC Report on the English Arbitration Bill, at para 19.
At para 7.1.
49
Appendix I to the CIArb Guidance at para 4.
48

17

69a

Consequential matters
54. The remaining procedural directions to the substantive hearing should be amended in light
of the new hearing date.
Continuation of the US Proceedings
Background and current status
55. Prior to serving its Statement of Defence in these proceedings, the Respondent issued
applications under 28 USC § 1782 (“Section 1782”) in Illinois and South Carolina. Section
1782 permits “interested parties,” including parties to a “foreign proceeding,” to apply to a
US district court for an order compelling a person residing or found in the district to produce
documents or give testimony for use in the foreign proceeding. At Appendix 1 there is a
timeline of these proceedings.

56. There are now three separate Section 1782 proceedings pending. One was commenced in
the Northern District of Illinois on 26 October 2018, where Boeing is headquartered,
seeking leave to serve a document Subpoena upon Boeing. On the same day, the
Respondent also commenced another proceeding in the District of South Carolina, seeking
leave to serve deposition Subpoenas on three Boeing employees it believed resided in South
Carolina. Two of the prospective deponents (Alan Sharkshnas and Terrance Shifley) were
eyewitnesses to the events at the Boeing “campus” in North Charleston, South Carolina in
January 2016 that gave rise to the claim in these proceedings. The third (Scott Walston)
chaired Boeing’s investigation into the Incident. After learning that Mr Shifley had moved
to Minnesota, the Respondent dropped the request to serve Mr. Shifley in South Carolina
and commenced a third proceeding to serve him in the District of Minnesota.

57. In November 2018, the US District Court for the Northern District of Illinois (Eastern
Division) granted leave to serve the document Subpoena. The Subpoena was served but the
Claimant intervened and, joined by Boeing, moved to vacate the court’s order and quash
service. The court granted these motions in April 2019. In September 2020, the decision to
quash the Subpoena was affirmed by the US Court of Appeals for the Seventh Circuit. On
7 December 2020 Servotronics petitioned the U.S. Supreme Court to review the decision
by writ of certiorari, which is due to be considered on 5 March 2021.
18

70a

58. In South Carolina, the district court denied the ex parte Application for leave to serve the
deposition Subpoenas, citing two 1999 decisions, one from the United States Court of
Appeal for the Second Circuit and another from the Fifth Circuit Court of Appeals, which
concluded that Section 1782 only authorizes applications in connection with proceedings
before a governmental body, which could include a government sanctioned arbitration but
not one constituted pursuant to a commercial contract between private parties. On appeal
to the US Court of Appeals for the Fourth Circuit, it was held that that a district court could
consider a Section 1782 application made in connection with a private commercial
arbitration and accordingly reversed and remanded so the district court could properly
consider consider whether to grant the Respondent’s Application as a matter of discretion.

59. On 22 April 2020. Respondent renewed its Section 1782 Application to depose Messrs
Sharkshnas, Walston and Shifley in the South Carolina district court. No order has been
issued since August 2020, when Judge Norton requested a (second) supplemental briefing
on a personal jurisdiction issue.

60. Having learned of Mr Shifley’s move to Minnesota, the Respondent instituted Section 1782
proceedings in the Minnesota district court for an order granting leave to Subpoena him in
that state. The Application has been fully briefed and is under consideration by a Magistrate
Judge.
61. In late September 2020, nearly two years since the Respondent commenced the South
Carolina Proceedings, and just over three years since the Respondent first requested
information from Claimant, the Claimant served witness statements from Mr Sharkshnas
and Mr Walston in these proceedings. On 20 January 2021, the Claimant advised the
Tribunal that Mr Sharkshnas had left Boeing’s employment with effect from Saturday 16
January 2021, and on 23 February, the Respondent (and Boeing) informed the South
Carolina district court, that they were no longer in communication with Mr. Sharkshnas.

62. The Claimant has been on notice of the Illinois Proceedings and South Carolina
Proceedings since 2018, having intervened in both cases. 50 The Claimant is also an active
respondent in the petition currently before the US Supreme Court in respect of the Illinois

50

The Claimant intervened in the Illinois proceedings on 19 November 2018

19

71a

Proceedings, having co-authored and filed a Brief in Opposition dated 10 February 2021.
The Claimant now seeks an order restraining the Respondent from pursuing the Illinois
Proceedings and the South Carolina Proceedings and asks this Tribunal to order the
Respondent to discontinue them. In the alternative, the Claimant seeks orders that any
evidence obtained in those proceedings is not required by the Tribunal “in advance of the
May hearing” and/or that such evidence will not be admitted in this arbitration.
63. The Respondent at present seeks no order in relation to any evidence that may come from
its pursuit of the US Proceedings, but seeks liberty to apply to adduce such relevant
evidence as may be obtained in those proceedings.
Preliminary note: the Claimant’s misconception of the Respondent’s Adjournment Request
64. The Claimant’s applications appear to be based on a misconception. It is not the
Respondent’s submission that any evidence from the Illinois and South Carolina
Proceedings must be obtained before the substantive hearing of this arbitration can take
place. The Respondent submits that the hearing should be adjourned because a remote (or
partially remote) hearing would be procedurally unfair. It is merely a relevant consideration
that the rescheduled hearing could benefit from evidence obtained in the Illinois (and
Minnesota) Proceedings. As explained below, there is no guarantee that any of the Boeing
witnesses will give evidence, and the Respondent has been prejudiced by the Claimant’s
late (and “drip-feed”) production of documents. Specifically, the Respondent has lost the
time it should have had to analyse these documents before having to serve expert evidence.
The Respondent has always been transparent with the Claimant and the Tribunal of its
intention to use Section 1782 proceedings to obtain evidence (see the Defence served on
12 July 2019, and the Amended Order for Directions dated 10 July 2020).

65. The Respondent instituted, justly, the Section 1782 proceedings against Boeing in order to
obtain the necessary and required evidence for its defence. It is the Claimant, by its
intervention in those proceedings that has sought to prevent the Respondent from obtaining
evidence from Boeing and those employees involved.

20

72a

The proposed injunctions
Applicable rules and principles
66. The Claimant purports to invoke the Tribunal’s power to grant interim relief pursuant to
Art. 26(3) of the CIArb Rules and s. 38(1) AA 1996. However, Art 26(3) makes clear that
this is a power to grant temporary measures. The effect of the Claimant’s application (i.e.
to require the discontinuance of the South Carolina and Illinois Proceedings) would be
permanent. As such, Art. 26(3) is inapplicable.
67. The alternative basis for the Claimant’s application is s. 48(5)(a) AA 1996. This provides
that the Tribunal has “the same powers as the court” to order a party to do or refrain from
doing anything. Importantly, it does not provide for the Tribunal to have any power to
enjoin a party where the English courts would not have the power to do so.
68. Also relevant to the Claimant’s application is Art. 32 of the CIArb Rules, which provides
as follows: “A failure by any party to object promptly to any non-compliance with these
Rules or with any requirement of the arbitration agreement shall be deemed to be a waiver
of the right of such a party to make such an objection, unless such party can show that,
under the circumstances, its failure to object was justified.”
69. The Claimant therefore effectively seeks an anti-suit injunction from the Tribunal in order
to prevent the Respondent from pursuing legitimate lines of evidence gathering. The
jurisdiction for granting an order of this nature was discussed by the House of Lords in
South Carolina Insurance Co. v Assurantie Maatschappij “de Zeven Provincien” N.V..51
Here, the Respondent applied for documentary discovery under 28 USC § 1782 prior to
filing its Statement of Defence in the arbitration that was the subject of these proceedings;
and informed the Tribunal shortly after its constitution of the proceedings. At that time, the
Tribunal had not made any order or considered any application for the production of
documents. In the interim, the arbitration had advanced, with the Tribunal ruling on the
parties’ respective Redfern schedules and documents being produced thereunder. The
underlying proceedings in South Carolina were at a similar stage when it came before the
House of Lords.52

51
52

[1987] A.C. 24.
Per Lord Brandon of Oakbrook at 38H.

21

73a

70. The House of Lords held that, before the court should restrain a party’s use of the 28 USC
§ 1782 procedure to obtain documents, it has to be satisfied that the use being made is either
a breach of some legal or equitable right of the objecting party or is vexatious or oppressive
or is in some other way unconscionable.53 Under s. 48(5)(a) AA 1996, the Tribunal has no
broader power to make such an order. Given that such an order would cut across the
jurisdiction of the US courts, for reasons of comity, it is submitted that it is right that an
injunction of this nature should only be obtained in narrowly defined circumstances.
71. The injunction was refused in South Carolina because there was nothing objectionable
about a party availing itself of lawful evidence-gathering procedures in another jurisdiction
in order to prepare for proceedings in the English court.54 South Carolina’s pursuit of those
proceedings could not be said to interfere with the procedures of the English court or the
English court’s control of its own process.55
The Illinois Proceedings
72. In the current proceedings, the suggestion by the Claimant that the Respondent’s continued
pursuit of the Illinois Proceedings “is likely to cause prejudice to the arbitral process itself”
simply cannot be sustained.56
73. The Claimant suggests that continued pursuit of the Illinois Proceedings meets the high
standard of unconscionability because the categories of documents sought from Boeing
materially overlap with categories of documents which the Tribunal has already ruled not
to be necessary to the fair disposal of this arbitration. This is simply incorrect and ignores
the point of principle, approved by Pumfrey J in Nokia Corporation v Interdigital
Technology Corporation,57 “the fact that a party is enabled by exercising those rights to
obtain documents and evidence which would not otherwise be available to it is not a ground
for interference by the English court.”
74. Nokia Corporation,58 also concerned an application to restrain proceedings under Section
1782 and Pumfrey J noted that, as a matter of US law, requests under Section 1782 were
53

Per Lord Brandon of Oakbrook at 41B-D.
Per Lord Brandon of Oakbrook at 41G-H, 42A-C.
55
Per Lord Brandon of Oakbrook at 42E-G.
56
Grounds in Support of the Claimant’s Application dated 11 January 2021, para 1.
57
[2004] EWHC 2920 (Pat).
58
[2004] EWHC 2920 (Pat).
54

22

74a

not circumscribed by the issues at stake in the foreign proceedings in support of which they
were made.59 He also noted that the US Supreme Court had ruled that unduly burdensome
requests under Section 1782 were liable to be trimmed.60 In those circumstances, despite
concluding that the classes of documents sought under Section 1782 would not be ordered
by way of disclosure in the English proceedings,61 and despite being “privately sceptical”
as to the likelihood that the Section 1782 discovery would turn up additional relevant
material,62 Pumfrey J concluded that the English court “should not seek to circumscribe the
discretion possessed by the district court by imposing its own view as to the
appropriateness of the classes of documents sought by reference to the issues in
proceedings as they stand”63 In any case, the final decision on admissibility was for the
English court.64
75. Applying the reasoning in Nokia Corporation, it is plainly not for the Tribunal to determine
whether the US Supreme Court should overturn the Seventh Circuit’s decision and restore
the document Subpoena in the Illinois Proceedings. Should the Claimant’s concerns about
the breadth of the Respondent’s Section 1782 requests be well-founded (which is denied),
the relevant US courts have the power to trim them. Boeing is not a party to these
proceedings, it has no obligation to this Tribunal, and the Respondent has no visibility on
what communications have passed between Boeing and Rolls-Royce.

76. The Respondent repeatedly requested the Claimant to exercise its rights under Article 7.i.
of its Mutual Release and Settlement Agreement with Boeing, and the Claimant steadfastly
denied exercising that right until this Tribunal required the Claimant to do so. The
Respondent’s exercise of its rights under Section 1782 derived from the Claimant’s actions.
The Respondent’s Application in the Illinois proceeding is directed to the Boeing Co. (who
itself promised to produce documents, largely consisting of the documents requested in the
Section 1782 application, and then did not). The Claimant sought to intervene in that action
(and in the one in South Carolina; and in opposition to the Respondent’s petition for
certiorari to U.S. Supreme Court).

59

At para 32(a).
At para 22(e).
61
At para 30.
62
At para 31.
63
At para 32(b).
64
At para 32(d).
60

23

75a

77. The Tribunal retains the ultimate power to determine the admissibility of any evidence
thereby obtained – such that should the Respondent seek to adduce documents that are not
relevant to the issues in these proceedings, the Tribunal can at that stage refuse to admit
them.
78. Even if the Claimant could establish that the Tribunal should usurp the US Supreme Court’s
jurisdiction, it has not sought to explain what harm it would suffer from the continued
pursuit of the Illinois Proceedings, nor why any such harm would not be adequately
reparable by damages. That is because the Claimant would suffer no such harm. The
Respondent’s document requests are directed at Boeing and not the Claimant. Any “harm”
to the Claimant from its involvement in the Illinois Proceedings is attributable to its choice
to intervene and not to any action by the Respondent.
79. In any case, in circumstances where the Claimant has been on notice of the Illinois
Proceedings for more than two years and has actively participated in the same, the Claimant
has plainly waived any objection to the Respondent’s pursuit of those proceedings under
Art. 32 of the CIArb Rules.
The South Carolina and Minnesota Proceedings
80. During the 30 June 2020 hearing before Judge David Norton, in opposition to Servotronics’
renewed Application under Section 1782 to take the depositions of Alan Sharkshnas, Scott
Walston, and Terrance Shifley, the Respondent and Boeing argued that such testimony was
not necessary because Rolls-Royce, and Boeing would ensure that Messrs. Sharkshnas and
Walston would testify during the Hearing. While Mr. Shifley has left Boeing and moved
to Minnesota (discussed above) the South Carolina proceeding remain relevant and
ongoing in Servotronic’s application for deposition Subpoenas; there is currently no
guarantee that Mr Sharkshnas or Mr Walston will in fact give evidence to the Tribunal. The
Respondent has little confidence that the Claimant will produce these witnesses for crossexamination. As noted above, the position with Mr Sharkshnas is particularly unclear.

81. As for the Minnesota Proceedings, the Claimant has not adduced a witness statement from
Mr Shifley (despite indicating at a hearing on 30 June 2020 in South Carolina that it
intended to) and so can have no legitimate objection to his being deposed such that his
evidence can be obtained. In those circumstances, there is no credible suggestion of
24

76a

prejudice in the Respondent being able to continue the proceedings; or of any harm
occurring to the Claimant. The Claimant seemingly recognises this, as its application does
not seek to enjoin the Minnesota proceedings.
The Claimant’s proposed directions on the necessity and admissibility of evidence
Applicable rules and principles
82. The Tribunal has broad powers to determine the admissibility, relevance and weight of
evidence under s.34 AA 1996 and Art. 27(4) of the CIArb Rules. However, these must be
exercised in accordance with its general duty under s33(1) AA 1996 to act fairly as between
the parties.

Proposed direction on necessity
83. The Claimant invites the Tribunal to rule that it does not “require” the evidence from the
US Proceedings for the hearing of these disputes to take place. The Respondent does not
suggest that the Tribunal does “require” it, such that should it not be obtained then the
hearing of this dispute could not go ahead. However, that does not mean that it will not be
probative to the issues in these proceedings should it be obtained. The test of the admission
of evidence is not necessity and the Tribunal should decline to make any such order, holding
the matter over to be assessed if the Respondent brings an application to adduce in these
proceedings any evidence so obtained.

Proposed direction on admissibility
84. Should its injunction application fail, the Claimant asks the Tribunal to order, preemptively and in the abstract, that any evidence obtained by the Respondent in the Illinois
proceedings will not be admitted as evidence in this arbitration.65 The same approach was
taken by the applicants in Bankers Trust International plc v PT Dharmala Sakti Sejahtera
(No. 1), which also concerned Section 1782 proceedings.66 That approach was
unsuccessful. Mance J held that the court could not make “any such prospective
It is understood that, in para 2(ii) of the Grounds in Support of the Claimant’s Application, where the
Claimant uses the phrase “shall not be admitted as evidence in this arbitration in advance of the May hearing,”
the words “in advance of the May hearing” are superfluous.
66
[1996] C.L.C. 252.
65

25

77a

declarations in respect of… evidence not yet identified.” For the same reason, the
Claimant’s alternative application should be rejected and the question of admissibility held
over to see if any evidence becomes available.
The Respondent’s proposal for liberty to apply
85. The Respondent recognises that the outcome of the Illinois, South Carolina and Minnesota
Proceedings is presently uncertain and does not at this point propose any directions order
in relation to the evidence that may come from those proceedings. However, the
Respondent seeks liberty to apply to adduce such relevant evidence as may later be obtained
in those proceedings.
Conclusion
86. In the circumstances, the Respondent seeks:
86.1. Directions that the hearing in the above matter is adjourned from 10 May 2021 to a
date not before 1 October 2021;

86.2. Corresponding changes to the remaining procedural directions;
86.3. Dismissal of the Claimant’s applications in relation to the US Proceedings;

86.4. Liberty to apply to adduce such relevant evidence as may be obtained in the US
Proceedings; and

86.5. Costs of the applications.
AKHIL SHAH QC
SAMUEL RITCHIE
Fountain Court Chambers
Temple
London
axs@fountaincourt.co.uk
sjr@fountaincourt.co.uk
1st March 2021
26

